No. 20In the

Supreme Court of the United States
XPEDITE SYSTEMS, INC.,
Petitioner,
v.
DIRECTOR, DIVISION OF TAXATION,
Respondent.
On Petition for a Writ of Certiorari to the
Superior Court of New Jersey, A ppellate Devision

PETITION FOR A WRIT OF CERTIORARI
Zachry T. Gladney
A lston & Bird LLP
90 Park Avenue
New York, NY 10016
(212) 210-9400

A ndrew J. Tuck
Counsel of Record
Clark R. Calhoun
Gavin Reinke
A lston & Bird LLP
1201 West Peachtree Street,
NW, Suite 4900
Atlanta, GA 30309
(404) 881-7000
andy.tuck@alston.com

Counsel for Petitioner

298794

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
This Court has long held that State taxation of
interstate commerce is only permissible where, among
other factors, the tax is fairly apportioned to the entity’s
activities in the State. New Jersey, like many States,
has a statute that allows its taxation authority to order
the reapportionment of revenue attributable to the State
where the taxpayer’s method of apportionment does not
properly reflect the revenue that is reasonably attributable
to the State. Unlike other States, New Jersey applies a
presumption of correctness to its Division of Taxation’s
decision to depart from the standard apportionment
methodology, and requires the taxpayer to demonstrate
that the Division’s departure is improper instead of
requiring the Division of Taxation to demonstrate why
the taxpayer’s apportionment was improper. This leads to
a “heads I win, tails you lose” system in which the Division
of Taxation can take different departure approaches to
different taxpayers to maximize New Jersey’s revenue,
and the differing approaches will be affirmed in court
challenges because of the deference afforded the Division
of Taxation.
The question presented is: Whether granting
unfettered deference to a State tax commissioner’s
decision to reapportion the revenues of an interstate
business violates the Due Process Clause and Commerce
Clause.

ii
LIST OF PARTIES AND RULE 29.6 STATEMENT
Petitioner Xpedite Systems, Inc. (“Xpedite”) is the
Plaintiff in the Tax Court of New Jersey and the Appellant
in the Superior Court of New Jersey, Appellate Division.
During the tax periods relevant to this petition, Xpedite
was wholly owned by Premiere Global Services, Inc.
(“PGi”). Open Text Corporation, a publicly-traded entity,
is the current ultimate parent of Xpedite (which is now
Xpedite Systems, LLC).
Respondent Director, Division of Taxation, State of
New Jersey is the Defendant in the Tax Court of New
Jersey and the Respondent in the Superior Court of New
Jersey, Appellate Division.

iii
RELATED CASES
Pursuant to Rule 14.1(b)(iii), a list of all proceedings
in other courts that are directly related to this case are
as follows:
• Xpedite Systems, Inc. v. Director, Division of
Taxation, No. C-788, Supreme Court of New
Jersey. Petition for certification denied on May 8,
2020.
• Xpedite Systems, Inc. v. Director, Division of
Taxation, No. A-000789-18T3, Superior Court of
New Jersey, Appellate Division. Judgment entered
on January 9, 2020 and motion for reconsideration
denied on January 23, 2020.
• Xpedite Systems, Inc. v. Director, Division of
Taxation, No. 018847-2010, Tax Court of New
Jersey. Judgment entered on September 5, 2018.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PA RTIES A ND RULE 29.6
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
REASONS FOR GRANTING THE PETITION . . . . . 8
I.

THIS CA SE PRESENTS A N
IMPORTANT QUESTION REGARDING
CONSTITUTIONAL LIMITS ON STATE
TAXATION PROCEDURE.  . . . . . . . . . . . . . . . . 8

v
Table of Contents
Page
A. The Constitution Limits States’ Ability
to Tax Interstate Commerce  . . . . . . . . . . . . 8
B. The Use of Revenue Apportionment
Statutes Must Comply w ith the
Constitutional Requirement of Internal
Consistency . . . . . . . . . . . . . . . . . . . . . . . . . . 10
C. New Jersey’s Practice of Granting
Un f e t t e r e d D i s c r e t i o n t o t h e
Division of Taxation’s Decision to
Reapportion a Taxpayer’s Revenues
Violates the Commerce Clause and
Due Process Clause . . . . . . . . . . . . . . . . . . . 13
II. THIS CASE PRESENTS A QUESTION
THAT HAS DIVIDED THE STATES.
OTHER STATES – UNLIK E NEW
JERSEY – PROVIDE PROCEDURAL
GUARDRAILS ON THE POTENTIAL
FOR TAX AUTHORITIES TO EXERCISE
POWER IN AN UNCONSTITUTIONAL
MANNER . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
III. THIS CASE IS AN IDEAL VEHICLE
FOR THE COURT TO ELUCIDATE
PROCEDURAL SAFEGUARDS STATES
MUST FOLLOW IN APPORTIONING
R E V EN U E F OR PU R P O S E S OF
TAXATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

vi
TABLE OF APPENDICES
Page
A PPEN DI X A — OR DER OF T H E
SUPREME COURT OF NEW JERSEY,
FILED MAY 12, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — OPINION OF THE SUPERIOR
COURT OF NEW JERSEY, APPELLATE
DIVISION, DATED JANUARY 9, 2020 . . . . . . . . . 2a
APPENDIX C — OPINION OF THE TA X
COU RT COM MIT T EE ON OPINIONS
T A X C OU R T OF N E W J E R S E Y,
DATED SEPTEMBER 5, 2018 . . . . . . . . . . . . . . . .  17a

vii
TABLE OF CITED AUTHORITIES
Page
CASES
ASARCO, Inc. v. Idaho State Tax Comm’n,
458 U.S. 307 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Bank of America Consumer Card Holdings v.
State Division of Taxation,
29 N.J. Tax 427 (Tax Ct. 2016)  . . . . . . . . . . . . . .  15, 17
CarMax Auto Superstores West Coast, Inc. v.
S.C. Dep’t of Revenue,
767 S.E.2d 195 (S.C. 2014)  . . . . . . . . . . . . . . . . . . . . . 19
City of Seattle v. KMS Fin. Servs., Inc.,
459 P.3d 359 (Wash. Ct. App. 2020)  . . . . . . . . . . . . . 12
Complete Auto Transit, Inc. v. Brady,
430 U.S. 274 (1977)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Container Corp. of Am. v. Franchise Tax Bd.,
463 U.S. 159 (1983)  . . . . . . . . . . . . . . . . . . . . . . . passim
Goldberg v. Sweet,
488 U.S. 252 (1989) . . . . . . . . . . . . . . . . . . . . . . 9, 10, 12
Hans Rees’ Sons, Inc. v. North Carolina,
283 U.S. 123 (1931)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Ind. Dep’t of State Revenue v.
Rent-A-Center East, Inc.,
963 N.E.2d 463 (Ind. 2012) . . . . . . . . . . . . . . . . . . . . .20

viii
Cited Authorities
Page
Metromedia, Inc. v. Dir., Div. of Taxation,
478 A.2d 742 (N.J. 1984) . . . . . . . . . . . . . . . . . . . . 13, 20
Microsoft Corp. v. Franchise Tax Bd.,
139 P.3d 1169 (Cal. 2006)  . . . . . . . . . . . . . . . . . . . . . . 18
Moorman Mfg. Co. v. Bair,
437 U.S. 267 (1978)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
New Energy Co. of Ind. v. Limbach,
486 U.S. 269 (1988) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
South Dakota v. Wayfair, Inc.,
138 S. Ct. 2080 (2018) . . . . . . . . . . . . . . . . . . . . . . . . . . 9
St. Johnsbury Trucking Co. v. State,
385 A.2d 215 (N.H. 1978) . . . . . . . . . . . . . . . . . . . . . . 19
Tenn. Wine & Spirits Retailers Ass’n v. Thomas,
139 S. Ct. 2449 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Trinova Corp. v. Dep’t of Treasury,
445 N.W.2d 428 (Mich. 1989), aff’d,
498 U.S. 358 (1991)  . . . . . . . . . . . . . . . . . . . . .  11, 17, 18
Twentieth-Century-Fox Film Corp. v.
Dep’t of Revenue,
700 P.2d 1035 (Or. 1985) . . . . . . . . . . . . . . . . . . . . . . . 18

ix
Cited Authorities
Page
STATUTES AND OTHER AUTHORITIES
Fourteenth Amendment of the United States
Constitution § 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Const., Art. I, § 1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Const., Art. I, § 8, Cl. 3 . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
N.J.A.C. § 18:7-8.10(a) . . . . . . . . . . . . . . . . . . . . . . . . . 6, 13
N.J.A.C. § 18:7-8.10(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
N.J.S.A. § 54:10A-6  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
N.J.S.A. § 54:10A-8  . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 11
O.C.G.A. § 48-7-31(d)(2)(C)  . . . . . . . . . . . . . . . . . . . . . . . 22
Tenn. Code Ann. § 67-4-2014(a)(5) . . . . . . . . . . . . . . . . . 22
Uniform Law Comm’n, Division of Income
for Tax Purposes Act . . . . . . . . . . . . . . . . . . . . . . . . . 23
Christopher T. Lutz, Robert P. Merten III, and
Nicholas J. Kump, Trends and Developments
in Alter native Appor tionment of State
Income, State Tax Notes 559 (May 8, 2017)  . . . 23, 24

x
Cited Authorities
Page
William J. Pierce, The Uniform Division of Income
for State Tax Purposes, 35 Taxes 747 (1957) . . . . . . 12

1
Petitioner, Xpedite Systems, Inc. (“Xpedite”),
respectfully petitions for a writ of certiorari to review
the Superior Court of New Jersey, Appellate Division’s
holding that the Director of the Division of Taxation for the
State of New Jersey was permitted to reject Xpedite’s use
of an apportionment formula codified in an administrative
regulation and to reapportion Xpedite’s revenues to
substantially increase the amount of revenue attributable
to New Jersey, without first finding that Xpedite’s use of
the standard apportionment formula did not reasonably
reflect Xpedite’s revenue attributable to New Jersey.1
OPINIONS BELOW
The Supreme Court of New Jersey’s Order denying
Xpedite’s petition for certification (App. 1a) is unreported.
The Superior Court of New Jersey, Appellate Division’s
Opinion (App. 2a) is unreported. The Tax Court of New
Jersey’s Opinion (App. 17a) is unreported.
JURISDICTION
The opinion of the Superior Court of New Jersey,
Appellate Division was entered on January 9, 2020.
Petitioner petitioned the Supreme Court of New Jersey
1. Though the New Jersey statute at issue here uses the
term “allocation” to refer to the division of taxable revenues
amongst the States, the more precise term is “apportionment.” The
term “allocation” is generally used in reference to non-business
income. The term “apportionment” is typically used in reference
to business income like the revenues at issue here. Thus, except
where quoting from New Jersey authorities, this Petition uses the
term “apportionment” to refer to the division of business income
across multiple States for taxation purposes.

2
for certification of the Superior Court of New Jersey,
Appellate Division’s judgment, which would have
allowed the Supreme Court of New Jersey to exercise
its discretionary review authority. The court denied the
petition for certification on May 8, 2020. On March 19,
2020, this Court entered an Order extending the deadline
to file any petition for a writ of certiorari due on or after
that date to 150 days from the date of the order denying
discretionary review. Because this Petition is filed within
150 days of the date on which the Supreme Court of New
Jersey denied Petitioner’s request for discretionary
review, this Court has jurisdiction pursuant to 28 U.S.C.
§ 1257(a).
CONSTITUTIONAL PROVISIONS INVOLVED
Article I, Section 8, Clause 3 of the United States
Constitution grants Congress the power “[t]o regulate
commerce with foreign nations, and among the several
states, and with the Indian tribes.”
Section 1 of the Fourteenth Amendment to the
United States Constitution states that “All persons born
or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of the United States and
of the State wherein they reside. No State shall make
or enforce any law which shall abridge the privileges or
immunities of cities of the United States; nor shall any
State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.”

3
INTRODUCTION
This Petition presents the Court with an opportunity
to resolve a split in the highest courts of the States
about the level of deference that should be given to a
tax commissioner’s decision to reapportion the revenues
of a company engaged in interstate commerce that are
attributable to that State.
Xpedite is a company that engages in interstate
commerce. For the years at issue, the vast majority of
Xpedite’s customers were located outside of the State of
New Jersey. Xpedite apportioned its revenues to New
Jersey for taxation purposes under an administrative
regulation permitting the apportionment of revenues
proportionately to the location of an entity’s customers.
The New Jersey Division of Taxation (the “Division” or the
“Division of Taxation”) rejected Xpedite’s apportionment
and concluded instead that Xpedite was required to
apportion revenues based on a different methodology that
weighted the location where Xpedite’s services originated,
where they were performed, and where they were
terminated. This resulted in a much larger apportionment
of Xpedite’s revenues to New Jersey and, consequently, the
amount of tax that Xpedite owed to New Jersey increased
dramatically. Xpedite is now subject to that increase in
New Jersey tax for the years 1998-2000 and 2002, with no
ability to revise its apportionment in other States.
Xpedite sought review of the Division of Taxation’s
decision to reapportion its revenues in the Tax Court
of New Jersey, but that court upheld the Division of
Taxation’s decision because it applied a presumption that
the Division of Taxation’s reapportionment decision was

4
correct and improperly placed the burden on Xpedite
to demonstrate that the decision was improper. Xpedite
appealed to the Superior Court of New Jersey, Appellate
Division, which also applied deference to the Division of
Taxation’s decision and rejected Xpedite’s challenge. The
Supreme Court of New Jersey denied review.
The deference that the New Jersey courts gave to the
Division of Taxation’s decision to reapportion Xpedite’s
revenues stands in stark contrast to the approach of
the highest courts of several other States. Unlike New
Jersey, those States require the tax commissioner to
make two specific showings before rejecting a taxpayer’s
use of a statutory apportionment formula. First, the
tax commissioner must demonstrate that the use of the
apportionment formula selected by the taxpayer produces
a result that is arbitrary or unreasonable. Second, the
tax commissioner must demonstrate that the proposed
reapportionment methodology produces a result that is
fair and reasonable.
This split in the decisions of the States has significant
constitutional implications. Both the Due Process
Clause and the Commerce Clause require that a State’s
decision to impose a tax on interstate activity be fairly
apportioned. To satisfy this requirement, the tax must
be “internally consistent,” which means that, if it were
applied by every single State, it would result in no more
than 100 percent of a company’s revenues being taxed. The
unfettered discretion that the New Jersey courts granted
to the Division of Taxation to depart from the standard
apportionment formula in this case violates that principle.
If each State were permitted to depart from its standard
apportionment formulas on a whim, without requiring any

5
specific showing that the standard formula imposed an
arbitrary or unfair result, companies would routinely be
taxed on greater than 100 percent of their revenues, as
tax commissioners in every State would apply whatever
method of allocation maximizes their State’s revenue at
the taxpayer’s expense, and that method of allocation
would be presumed correct in any appeal.
As discussed below, this Court should grant certiorari
to clarify that the Constitution only permits tax
commissioners to unilaterally reallocate a taxpayer’s
revenues after a specific showing that the standard
allocation methodology does not fairly and adequately
represent the portion of the taxpayer’s revenue that is
attributable to a particular State. It is important that
this Court decide this question because reallocation
statutes like the one at issue in this case are commonplace
and because States are increasingly becoming more
aggressive in their attempts to use such statutes to
generate additional revenue to taxpayers’ detriment.
STATEMENT OF THE CASE
This Petition originates from an assessment of New
Jersey Corporation Business Tax (“CBT”) on Xpedite
by the New Jersey Division of Taxation. Xpedite
originally filed its CBT returns under the general rule
of the Division’s apportionment regulation to assign its
receipts from business services to New Jersey. Through
the assessment, the Division invoked its discretionary
authority to reapportion the receipts under an alternative
apportionment method that substantially increased
Xpedite’s New Jersey taxable income.

6
The CBT permits a multistate corporation to apportion
income among the States in which it conducts business
by applying an apportionment formula to determine its
New Jersey taxable income. N.J.S.A. § 54:10A-6. The
apportionment formula reflects business activity in New
Jersey based on the proportion of the taxpayer’s New
Jersey property, payroll (i.e., wages paid to New Jersey
employees), and receipts. Id. The Division’s discretionary
modification of Xpedite’s apportionment formula was
effected through an adjustment to its “receipts” factor.
Xpedite originally determined its CBT liability
for the years 1998-2000 and 2002 (the “Tax Years”) by
apportioning receipts from its facsimile broadcast services
based on the location of its customers under the general
rule of the Division’s apportionment regulation. N.J.A.C. §
18:7-8.10(a). App. 18a-19a. The Division audited Xpedite’s
CBT returns and reapportioned its receipts to New Jersey
based on an alternative methodology that assigns receipts
using a three-pronged method based on the location where
a service originates, where the service is “performed,”
and where the service terminates. N.J.A.C. § 18:7-8.10(c).
App. 23a. The Division cited its discretionary authority for
reapportioning taxable income under N.J.S.A. § 54:10A-8
as the basis for making this adjustment. App. 6a-7a, 16a.
The effect of the Division’s discretionary adjustment was
to deny Xpedite’s use of the general rule for apportionment
under the New Jersey regulations in favor of an alternative
method that reassigned receipts to New Jersey and thus,
significantly increased Xpedite’s New Jersey taxable
income.
Xpedite protested the Division’s reapportionment to
the Conference and Appeals branch of the Division. After

7
an administrative conference, the Division upheld the
adjustment through a Final Determination dated August
6, 2010. App. 17a-18a, 24a. The Final Determination
increased Xpedite’s CBT liability for the Tax Years, for
a total assessment inclusive of penalty and interest of
$6,160,570. App. 18a
Xpedite appealed the Final Determination to the
New Jersey Tax Court. In an Opinion dated September
5, 2018, the Tax Court granted summary judgment to
the Division. The Tax Court determined that “the issue
in the case is the reasonableness of Taxation’s allocation
methodology as to which it has ‘broad authority’ to make
adjustments.” App. 44a. The Tax Court concluded that
the Division’s adjustment to Xpedite’s receipts factor
was reasonable given its broad discretionary authority,
and that therefore, “Xpedite has not met its burden of
overcoming the presumptive correctness of Taxation’s
CBT assessments.” App. 48a.
Xpedite filed a notice of appeal to the Appellate
Division of the New Jersey Superior Court on October 19,
2018. In a Decision dated January 9, 2020, the Appellate
Division upheld the Tax Court below, stating that the
Appellate Division’s “review of a decision by the Tax Court
is highly deferential” and that because “the Tax Court has
‘special expertise’, its findings will not be disturbed unless
they are arbitrary.” App. 13a. The Appellate Division
upheld the Tax Court based on its conclusion that the
Division of Taxation’s reallocation was “well within the
Director’s discretion.” App. 16a. Xpedite filed a motion
for reconsideration, which the Appellate Division denied
on January 23, 2020.

8
Xpedite filed its notice of petition for certification to
the New Jersey Supreme Court on January 31, 2020, which
was denied by Order of the court on May 8, 2020. App. 1a.
REASONS FOR GRANTING THE PETITION
I.

THIS CA SE PRESEN TS A N IMPORTA N T
QUESTION REGARDING CONSTITUTIONAL
LIMITS ON STATE TAXATION PROCEDURE.

This case presents an important question of the
constitutional limits on a State’s ability to formulate its
own apportionment of a taxpayer’s revenue for State
income tax purposes. New Jersey allows its Division of
Taxation to disagree with a taxpayer’s apportionment,
reassess a taxpayer’s liability using the Division’s own
formulation for apportionment, then receive deference in
any apportionment challenge, with the burden of proof
resting with the taxpayer to prove that the Division’s
decision to reapportion was incorrect. If every State were
to enact such a regime, interstate taxpayers would be
subject to taxation on far more than their entire business
revenue since each State’s taxation authority would apply
an apportionment that maximizes revenue in their own
State, and that apportionment would be upheld under
deferential review. Such a scheme violates the Commerce
Clause and Due Process Clause.
A.

The Constitution Limits States’ Ability to Tax
Interstate Commerce.

This Court is often asked to resolve constitutional
challenges to State taxes and “has frequently had
occasion to consider whether state taxes violate the

9
Commerce Clause.” Goldberg v. Sweet, 488 U.S. 252, 259
(1989). This is because, “while the Constitution imposes
no single formula on the States,” it provides important
limits on the States’ ability to tax revenue that is not
properly attributable to the State seeking to impose the
tax. Specifically, “[u]nder both the Due Process and the
Commerce Clauses of the Constitution, a State may not,
when imposing an income-based tax, ‘tax value earned
outside its borders.’” Container Corp. of Am. v. Franchise
Tax Bd., 463 U.S. 159, 164 (1983) (quoting ASARCO, Inc.
v. Idaho State Tax Comm’n, 458 U.S. 307, 315 (1982)); see
also Tenn. Wine & Spirits Retailers Ass’n v. Thomas, 139
S. Ct. 2449, 2459 (2019) (recognizing that the Commerce
Clause “prohibits state laws that unduly restrict interstate
commerce” and “‘prevents the States from adopting
protectionist measures and thus preserves a national
market for goods and services.’” (quoting New Energy Co.
of Ind. v. Limbach, 486 U.S. 269, 273 (1988)).
Over 40 years ago, this Court articulated the
framework for evaluating constitutional challenges to
State taxes on interstate commerce. In Complete Auto
Transit, Inc. v. Brady, 430 U.S. 274, 279 (1977), the Court
set forth the four criteria that a State tax must satisfy
to pass constitutional muster. First, the tax must be
“applied to an activity with a substantial nexus with the
taxing State.” Id. Second, it must be “fairly apportioned.”
Id. Third, it must not “discriminate against interstate
commerce.” Id. Fourth, it must be “fairly related to
the services provided by the State.” Id. This Court has
recently reiterated these core constitutional requirements.
See South Dakota v. Wayfair, Inc., 138 S. Ct. 2080, 2091
(2018) (“The Court will sustain a tax so long as it (1) applies
to an activity with a substantial nexus with the taxing

10
State, (2) is fairly apportioned, (3) does not discriminate
against interstate commerce, and (4) is fairly related to
the services the State provides.”).
This case involves the second requirement – that the
tax be fairly apportioned. “[T]he central purpose behind
the apportionment requirement is to ensure that each
State taxes only its fair share of an interstate transaction.”
Goldberg, 488 U.S. at 260-61. To be fairly apportioned, a
tax must be both “internally and externally consistent.”
Id. at 261. “[T]o be internally consistent, a tax must
be structured so that if every State were to impose an
identical tax, no multiple taxation would result.” Id. Put
another way, the method of taxation “must be such that,
if applied by every jurisdiction, it would result in no more
than all of the unitary business income being taxed.” 2
Container Corp. of Am., 463 U.S. at 169.
B. The Use of Revenue Apportionment Statutes
Must Comply with the Constitutiona l
Requirement of Internal Consistency.
Because the Constitution prohibits States from
“tax[ing] value earned outside [their] borders,” Container
Corp. of Am., 463 U.S. at 164 (internal quotation marks
omitted), each State that imposes a tax on income has
statutory or regulatory guidance containing formulas that
explain how to apportion business revenues to that State.
While these formulas often result in fair apportionment
2. External consistency, which is not at issue here, examines
whether “the factor or factors used in the apportionment formula
. . . actually reflect a reasonable sense of how income is generated.”
Container Corp. of Am., 463 U.S. at 169.

11
of a company’s revenues, sometimes they do not. See,
e.g., Hans Rees’ Sons, Inc. v. North Carolina, 283 U.S.
123, 135 (1931) (striking down use of statutory method to
apportion business revenues to North Carolina because it
“attribut[ed] to North Carolina a percentage of income out
of all appropriate proportion to the business transacted by
the appellant in that State”). To safeguard against unfair
results produced by the standard apportionment formulas,
many States have enacted statutes that allow departures
from the standard formula where applying it would not
properly reflect receipts that are reasonably attributable
to the State. The New Jersey statute at issue here provides
an illustrative example. It states, in relevant part: “If it
shall appear to the commissioner that an allocation factor
. . . does not properly reflect the activity, business, receipts,
capital, entire net worth or entire net income of a taxpayer
reasonably attributable to the State, he may adjust it
. . . .” N.J. Stat. Ann. § 54:10A-8.
By sa feg ua rd i ng ag a i nst u n fa i r resu lt s,
reapportionment statutes like New Jersey’s serve an
important role as a “constitutional ‘circuit breaker.’”
Trinova Corp. v. Dep’t of Treasury, 445 N.W.2d 428, 434
(Mich. 1989), aff’d, 498 U.S. 358 (1991). This important
purpose is also ref lected in State court decisions
examining the use of reapportionment statutes. For
example, the Supreme Court of Michigan remarked that
the purpose of a statute that allows reapportionment of
revenues where the statutory apportionment formulas “do
not fairly represent the extent of the taxpayer’s business
activity in this state” is to “ensure[] that each state
taxes only its share of interstate transactions” by giving
the State a mechanism to reject the statutory allocation
where it would produce an unfair result. See id.; see also

12
City of Seattle v. KMS Fin. Servs., Inc., 459 P.3d 359,
366 (Wash. Ct. App. 2020) (holding that a statute that
allows a taxation authority to “employ another method
to allocate the taxpayer’s income” “provides a safety
net” to “avoid a constitutional violation”). In other words,
where a method of allocation and apportionment does not
fairly reflect the extent of a taxpayer’s taxable activities
in a jurisdiction, reapportionment statutes like the New
Jersey statute at issue here can provide an important
constitutional safeguard that can be used to foster “the
central purpose behind the apportionment requirement,”
namely, “ensur[ing] that each State taxes only its fair
share of an interstate transaction.” See Goldberg, 488
U.S. at 260-61.
But because these statutes grant wide discretion to
reapportion revenues, they are subject to abuse if their
use is not carefully constrained. Indeed, as this Court has
previously recognized, the use of a standard statutory
apportionment formula is entitled to a great deal of
deference. See Moorman Mfg. Co. v. Bair, 437 U.S. 267,
274 (1978) (“States have wide latitude in the selection
of apportionment formulas and . . . a formula-produced
assessment will only be disturbed when the taxpayer
has proved by ‘clear and cogent evidence’ that the income
attributed to the State is in fact out of all appropriate
proportions to the business transacted in that State or has
led to a grossly distorted result.”). Thus, departures from
the standard apportionment formulas should be viewed
with skepticism, and the use of reapportionment statutes
should be limited to those narrow circumstances in which
they are necessary to prevent “arbitrary or unreasonable
results.” William J. Pierce, The Uniform Division of
Income for State Tax Purposes, 35 Taxes 747, 781 (1957).

13
And a tax commissioner’s use of a reapportionment
statute, like any other method of taxation, must satisfy
the four core constitutional requirements, including the
internal consistency rule, to pass constitutional muster.
See Container Corp. of Am., 463 U.S. at 169.
C.

New Jersey’s Practice of Granting Unfettered
Discretion to the Division of Taxation’s Decision
to Reapportion a Taxpayer’s Revenues Violates
the Commerce Clause and Due Process Clause.

Unlike the approach followed by other States, see
Section II, infra, New Jersey grants “considerable
discretion” to the Division’s decision to impose an
alternative apportionment, and New Jersey courts have
held that the Division has “broad authority . . . to determine
what income-producing activity . . . is reasonably referable
to [the taxpayer’s] business in New Jersey.” Metromedia,
Inc. v. Dir., Div. of Taxation, 478 A.2d 742, 747 (N.J.
1984). In this case, Xpedite calculated the amount of tax
it owed to New Jersey by allocating its revenues based
on the location of its customers under a New Jersey
administrative regulation, N.J.A.C. § 18:7-8.10(a). App. 5a.
But the Division of Taxation rejected Xpedite’s reliance on
this administrative regulation. The Tax Court found that
the Division applied this “broad authority” to calculate the
amount of tax Xpedite owed under an entirely different
approach that computed the percentage of Xpedite’s
revenues attributable to New Jersey by weighting the
location where Xpedite’s services originated, the location
where Xpedite’s services were performed, and the location
where Xpedite’s services were terminated. App. 7a. This
resulted in over 75 percent of Xpedite’s revenues being
taxed by New Jersey, even though less than 10 percent of

14
Xpedite’s customers were located in New Jersey for each
of the years in question. Id.; see also Br. for Pl.-Appellant
at 7 (N.J. Super. Ct. App. Div.).
The New Jersey Superior Court, Appellate Division
affirmed the Tax Court’s decision and applied New
Jersey’s extremely deferential review of the Division
of Taxation’s apportionment methodology, expressly
finding that its “review of a decision by the Tax Court
is highly deferential” and “‘limited [in] scope.’” App.
13a. The Appellate Division applied New Jersey law to
place the burden on Xpedite to prove that the Division
of Taxation’s decision to apply an alternative method of
apportionment was improper. See App. 13a, 16a. The court
then concluded that Xpedite had not met that burden.
Id. Like the Tax Court, the Appellate Division made no
finding that the formula Xpedite used to determine the
portion of its revenues to allocate to New Jersey produced
an unreasonable or arbitrary result. Instead, it concluded
that because the Division of Taxation’s chosen allocation
methodology “reasonably reflects the portion of Xpedite’s
services” performed in New Jersey, the Division of
Taxation’s decision to reject Xpedite’s use of the statutory
formula “was . . . well within the Director’s discretion.”
App. 16a.
The Constitution does not permit that extraordinary
deference. As discussed above, to comport with due
process and to satisfy the requirements of the Commerce
Clause, a rule of taxation must be internally consistent.
The internal consistency test examines whether a rule
of taxation, if applied hypothetically across all States,
would result in greater than 100 percent of a taxpayer’s
income being taxed. See, e.g., Container Corp. of Am., 463

15
U.S. at 169 (“The first, and again obvious, component of
fairness in an apportionment formula is what might be
called internal consistency—that is, the formula must
be such that, if applied by every jurisdiction, it would
result in no more than all of the unitary business’ income
being taxed.”). If so, then the rule of taxation violates the
Constitution. See id.
Granting a tax commissioner the unfettered authority
to reject a taxpayer’s use of the standard allocation
methodology simply because he dislikes the result, as
New Jersey does, violates the internal consistency test.
If every State’s tax commissioner were granted deference
to reallocate taxpayer revenues however he wished, far
greater than 100 percent of every interstate service
provider’s revenues would be taxed, as tax commissioners
would apportion service providers’ revenues based on their
place of performance for those jurisdictions in which the
service provider has property and payroll (as New Jersey
did with Xpedite in this case), and would force those
service providers to pay taxes based exclusively on the
location of their customers in those jurisdictions in which
the service provider has no or limited property and payroll
(as New Jersey did in the Bank of America case, discussed
below). If adopted by all States, this scheme of deference
would cause all interstate service providers to pay tax on
over 100 percent of their revenues, and would therefore
violate the internal consistency rule. See Container Corp.
of Am., 463 U.S. at 169 (internal consistency rule requires
that, if the method of taxation were “applied by every
jurisdiction, it would result in no more than all of the
unitary business’ income being taxed”).

16
The following hypothetical two-State scenario
illustrates the reason that granting deference to tax
commissioners’ reapportionment decisions leads to
internally inconsistent, and therefore unconstitutional,
results. Assume that each of the two States in this
scenario has a standard statutory allocation formula
that permits a taxpayer to apportion revenues based on
the location of its customers, and that a taxpayer has 90
percent of its operations in State A but 75 percent of its
customers in State B. If the taxpayer applies the standard
apportionment formula in each State and apportions its
revenues between the two States based on the location of
its customers, it will be taxed on 75 percent of its revenue
in State B and 25 percent of its revenue in State A. But
if State A follows the same approach that New Jersey
did in this case, State A will require the taxpayer to pay
taxes on 90 percent of its revenue and that decision will
be upheld on appeal because of the great deal of deference
given to the tax commissioner’s reallocation decision. The
taxpayer would still be on the hook for paying taxes on 75
percent of its revenue to State B under State B’s standard
apportionment formula, and the end result would be that
the taxpayer is required to pay taxes on far greater than
100 percent of its revenue. The only way to prevent this
result is to place the burden on the tax commissioner
in State A to demonstrate that the use of the standard
formula fails to fairly reflect the taxpayer’s income and
then—rather than simply defer to the State’s assertion
that it has done so—actually require the State to meet its
evidentiary burden. New Jersey’s system, as it stands, is
a violation of constitutional standards, for the Division’s
determination is never independently reviewed, except
by a court applying an extremely deferential standard
of review.

17
Moreover, as this Court has previously recognized,
it is impermissible to “allow apportionment where there
is no practical or theoretical justification,” because doing
so “could provide the opportunity for a State to export
tax burdens and import tax revenues.” Trinova Corp.
v. Mich. Dep’t of Treasury, 498 U.S. 358, 374 (1991).
But granting tax commissioners unfettered discretion
to depart from statutory apportionment formulas by
presuming that their decisions to do so are correct and
requiring the taxpayer to bear the burden of overcoming
them allows tax commissioners to do exactly that. The
extreme deference that New Jersey gives to the Division
of Taxation’s apportionment methodology allows New
Jersey to make taxation decisions based on whatever
apportionment scheme will maximize the State’s revenue,
even if the State’s positions are irreconcilable from case
to case.
For example, in Bank of America Consumer Card
Holdings v. State Division of Taxation, the New Jersey
Tax Court explained that, in the modern technology-based
service economy, revenues from services must be allocated
to the location of the customer who receives the benefit of
those services: “When it comes to services in a servicebased economy, . . . the service provider allocation should
be based upon where the benefit of the service is derived or
earned . . . .” 29 N.J. Tax 427, 465 (Tax Ct. 2016) (emphasis
added). In this case, however, the Tax Court reached the
exact opposite conclusion, and refused to allow Xpedite
to apportion its revenues based on the location of its
customers. To return to the earlier hypothetical, because it
does not impose a burden of proof on the Division to utilize
alternative apportionment, New Jersey’s reapportionment
statute permits the Division to impose an apportionment

18
formula as to each taxpayer that will benefit the State the
most, and the highly deferential standard applied by the
courts means that the Division never has to rationalize
or justify the internally-inconsistent results that follow.
This is exactly the kind of “competitive mischief” that
the Commerce Clause bars. See Trinova Corp., 498 U.S.
at 374.
II. THIS CASE PRESENTS A QUESTION THAT
H A S DI V I DED T H E STAT E S . O T H ER
STATES – UNLIKE NEW JERSEY – PROVIDE
PR O C E DU R A L GUA R D R A I L S O N T H E
POTENTIAL FOR TA X AUTHORITIES TO
EXERCISE POWER IN AN UNCONSTITUTIONAL
MANNER.
There is a split in the highest courts of the States about
the appropriate level of deference the States must give to
tax commissioners’ use of an alternative apportionment
mechanism. At one end of the spectrum, a party seeking
to depart from a standard apportionment formula bears a
heavy burden of showing that the departure is warranted.
In California, for example, to justify departing from a
taxpayer’s use of the standard apportionment formula, the
tax commissioner “has the burden of proving, by clear and
convincing evidence that (1) the approximation provided
by the standard formula is not a fair representation, and
(2) its proposed alternative is reasonable.” Microsoft Corp.
v. Franchise Tax Bd., 139 P.3d 1169, 1177 (Cal. 2006).
Other States require a similarly specific showing before
upholding a departure from the standard apportionment
formula, but only require the tax commissioner to make
that showing by a preponderance of the evidence. See, e.g.,
Twentieth-Century-Fox Film Corp. v. Dep’t of Revenue,

19
700 P.2d 1035, 1043-44 (Or. 1985) (tax commissioner
must prove, by a preponderance of evidence, both (1) the
standard statutory formula produces an unfair result;
and (2) the “alternative method of allocating income is
‘reasonable’”); see also CarMax Auto Superstores West
Coast, Inc. v. S.C. Dep’t of Revenue, 767 S.E.2d 195,
200 (S.C. 2014) (“[W]hen a party seeks to deviate from
a statutory formula under section 12-6-2320(A), the
proponent of the alternate formula bears the burden of
proving by a preponderance of the evidence that: (1) the
statutory formula does not fairly represent the taxpayer’s
business activity in South Carolina and (2) its alternative
accounting method is reasonable.”).
In States that follow these approaches, before
reallocating a taxpayer’s revenues, the tax commissioner
must “state . . . findings of basic fact to support a conclusion
that the statutory standard of unfair apportionment has
been met.” St. Johnsbury Trucking Co. v. State, 385 A.2d
215, 217 (N.H. 1978). In other words, the tax commissioner
must explain why both of the prerequisites to departing
from the standard statutory formula are satisfied. The
reason specific factual findings are necessary is because,
as explained by one State supreme court, “an alternative
formula is the exception,” not the rule. Id. Moreover, the
mere fact that “the use of an alternative form of computation
produces a higher business activity attributable to [the
State] is not in and of itself a sufficient reason for deviating
from the legislatively mandated formula.” Id. Requiring
a tax commissioner to demonstrate specific facts before
departing from the standard statutory formula ensures
that alternative reapportionment cannot be used for a
nefarious purpose.

20
As discussed above, New Jersey’s approach lies at the
complete opposite end of the spectrum. New Jersey does
not require the Division of Taxation to make any specific
showings in order to justify its use of an alternative
apportionment methodology. And it does not require the
Division to prove that the taxpayer’s use of the standard
apportionment formula produced an arbitrary or unfair
result. Instead, the Supreme Court of New Jersey has
held that the Division of Taxation has the “broad authority
to adjust the allocation factor in order to reflect more
accurately and fairly the activity, business, receipts . . .
or entire net income of a taxpayer reasonably referable to
the state.” Metromedia, Inc., 478 A.2d at 747. Given this
expansive authority, New Jersey’s courts have held that
the methodology selected by the Division of Taxation is
presumptively correct, and they place the burden on the
taxpayer to “overcom[e] the presumptive correctness” of
the Division of Taxation’s apportionment. See App. 48a.
New Jersey is not alone in rubber-stamping tax
commissioners’ decisions to depart from standard
appor tionment for mulas. Indiana a lso applies a
“presumption of validity” to its Department of Revenue’s
decision to deviate from a statutory apportionment
formula. See Ind. Dep’t of State Revenue v. Rent-A-Center
East, Inc., 963 N.E.2d 463, 466 (Ind. 2012). And, like New
Jersey, Indiana places the burden on the taxpayer to
demonstrate that the Department of Revenue’s alternative
method of allocation is incorrect. See id. at 467.
As these decisions demonstrate, the level of deference
that courts give to tax commissioners’ use of alternative
apportionment statutes varies significantly across
the States – with massively disparate results. States

21
like California, Oregon, and South Carolina require
tax commissioners to specifically demonstrate that a
taxpayer’s use of a standard apportionment formula
produces an unfair result in order to justify reapportioning
a taxpayer’s revenues. In States like New Jersey and
Indiana, the tax commissioner’s reapportionment decision
is presumed correct, even if the commissioner has not
demonstrated that there was anything wrong with the
taxpayer’s approach. In these jurisdictions, the burden
rests with the taxpayer to prove that the commissioner’s
decision is wrong.
This Court should grant Xpedite’s Petition to
resolve this split and should hold that, before rejecting a
taxpayer’s use of a standard apportionment formula, tax
commissioners bear the burden of demonstrating both
that the use of the standard formula is unreasonable and
that the tax commissioner’s alternative apportionment
methodology produces a reasonable result.
III. THIS CASE IS A N IDEAL VEHICLE FOR
THE COURT TO ELUCIDATE PROCEDURAL
SAFEGUARDS STATES MUST FOLLOW IN
APPORTIONING REVENUE FOR PURPOSES
OF TAXATION.
This case presents the ideal vehicle for resolving the
split in the highest courts of the States about the level of
deference that should be given to a tax commissioner’s
decision to reallocate revenues. As discussed above, New
Jersey’s approach to deciding challenges to the use of a
reallocation statute is among the most deferential in the
nation. Moreover, New Jersey’s apportionment statute is
unique in that it allows only the Division of Taxation, and

22
not the taxpayer, to deviate from the statutory formula.
Other States allow both the tax commissioner and the
taxpayer to take advantage of the ability to reapportion
where the statutory formula produces an unfair result.
See, e.g., O.C.G.A. § 48-7-31(d)(2)(C) (“If the allocation and
apportionment provisions provided for in this paragraph
do not fairly represent the extent of the taxpayer’s business
activity in this state, the taxpayer may petition the
commissioner for, or the commissioner may by regulation
require . . . [t]he employment of any other method to
effectuate an equitable allocation. . . .”); Tenn. Code Ann.
§ 67-4-2014(a)(5) (“If the tax computation, allocation or
apportionment provisions . . . do not fairly represent the
extent of the taxpayer’s business activity in this state . . .
the taxpayer may petition for, or the department through
its delegates may require . . . [t]he employment of any other
method to effectuate an equitable computation, allocation
and apportionment of the taxpayer’s net earnings or losses
that fairly represents the extent of the business entity’s
activities in Tennessee.”).
This unique feature of New Jersey’s reapportionment
statute makes it especially susceptible to the kind of
unconstitutional results that Xpedite faced in this case.
Because only the Division of Taxation, and not the
taxpayer, has the authority to deviate from a standard
allocation formula, New Jersey’s apportionment statute
functions as a one-way ratchet that can be used to increase
the portion of the taxpayer’s revenue that is subject to
taxation by New Jersey, without allowing taxpayers
to benefit from reapportionment where the standard
apportionment methodology produces a result that is too
high. The one-sided nature of New Jersey’s apportionment
statute makes it especially critical that the Division of

23
Taxation be required to make a specific showing that the
taxpayer’s use of the standard apportionment formula
produces an unfair result and that the commissioner’s
chosen reallocation methodology is reasonable.
This case also presents an ideal vehicle for this
Court’s review because this Court’s review of the level
of deference that should be given to tax commissioners
is urgently needed. Apportionment statutes like the New
Jersey statute at issue in this case are common. In fact,
the Uniform Division of Income for Tax Purposes Act
(“UDITPA”), which includes such a reapportionment
provision, has been enacted by 23 States and the District
of Columbia. See Uniform Law Comm’n, Division of
Income for Tax Purposes Act, available at https://bit.
ly/30hsStD (last visited Oct. 2, 2020). And even States
that have not adopted the UDITPA, like New Jersey, have
statutes that grant tax commissioners the authority to
reapportion revenues. Thus, this issue is likely to continue
to arise until this Court resolves it.
Moreover, States are increasingly using apportionment
statutes to extract additional revenue from taxpayers.
As commenters have recognized, the recent trend is
to “almost uniformly make it easier for states to use
alternative apportionment” to increase their revenue,
“while erecting obstacles for taxpayers.” Christopher
T. Lutz, Robert P. Merten III, and Nicholas J. Kump,
Trends and Developments in Alternative Apportionment
of State Income, State Tax Notes 559, 565 (May 8, 2017).
This trend has been so pervasive that the Multistate Tax
Commission has proposed amending the UDITPA’s model
statute to require a specific finding “(i) that the existing
statutory allocation and apportionment provisions do not

24
fairly represent the extent of the taxpayer’s activity in
the state, and (ii) that the alternative method proffered
by the petitioning party is reasonable.” Id. at 568. In
other words, the professionals reviewing the UDITPA
recognized the impropriety of deferring to taxation
authorities on reallocation issues and proposed changes to
the model statute to provide the constitutional guardrails
already in place in States like California, Oregon, and
South Carolina.
The proposed changes to the UDITPA alone, however,
are not enough to safeguard against the unconstitutional
use of reapportionment statutes. States are not required
to enact the UDITPA’s amendments into law, and are
incentivized not to do so because, in those jurisdictions
that presume a tax commissioner’s reapportionment is
reasonable, that discretion provides tax commissioners
with a great deal of authority to use reapportionment
statutes to maximize their State’s revenue at the expense
of taxpayers. Thus, until this Court resolves the split
amongst the highest State courts about the showing tax
commissioners must make before they are permitted
to reject a taxpayer’s use of a standard apportionment
formula, taxpayers like Xpedite will remain at risk of
being subjected to arbitrary, unfair, and unconstitutional
taxation burdens.

25
CONCLUSION
For the above reasons, Xpedite’s Petition for Writ of
Certiorari should be granted.
			Respectfully submitted,
Zachry T. Gladney
A lston & Bird LLP
90 Park Avenue
New York, NY 10016
(212) 210-9400

A ndrew J. Tuck
Counsel of Record
Clark R. Calhoun
Gavin Reinke
A lston & Bird LLP
1201 West Peachtree Street,
NW, Suite 4900
Atlanta, GA 30309
(404) 881-7000
andy.tuck@alston.com

Counsel for Petitioner

APPENDIX

1a
AppendixOF
A THE SUPREME
APPENDIX A — ORDER
COURT OF NEW JERSEY, FILED MAY 12, 2020

SUPREME COURT OF NEW JERSEY
C-788 September Term 2019
084094
XPEDITE SYSTEMS, INC.,
Plaintiff-Petitioner,
v.
DIRECTOR, DIVISION OF TAXATION,
Defendant-Respondent.
ORDER
A petition for certification of the judgment in
A-000789-18 having been submitted to this Court, and
the Court having considered the same;
It is ORDERED that the petition for certification is
denied, with costs.
WITNESS, the Honorable Stuart Rabner, Chief
Justice, at Trenton, this 8th day of May, 2020.
/s/						
CLERK OF THE SUPREME COURT

2a
AppendixOF
B THE SUPERIOR
APPENDIX B — OPINION
COURT OF NEW JERSEY, APPELLATE
DIVISION, DATED JANUARY 9, 2020
SUPERIOR COURT OF NEW JERSEY,
APPELLATE DIVISION
DOCKET NO. A-0789-18T3
XPEDITE SYSTEMS, INC.,
Plaintiff-Appellant,
v.
DIRECTOR, DIVISION OF TAXATION,
Defendant-Respondent.
October 17, 2019, Argued
January 9, 2020, Decided
On appeal from the Tax Court of New Jersey,
Docket No. 018847-2010.
Before Judges Whipple, Gooden Brown and Mawla.
PER CURIAM
Plaintiff Xpedite Systems, Inc. (Xpedite) appeals from
a September 5, 2018 Tax Court order denying its motion
for summary judgment, granting defendant Director,
Division of Taxation’s (Division) cross-motion for summary

3a
Appendix B
judgment, and dismissing plaintiff’s complaint. Xpedite
argues the Tax Court judge erroneously calculated the
portion of income, or “receipts,” Xpedite earned from
services performed in New Jersey between 1998 and
2002, that should have been allocated to New Jersey for
tax purposes. We affirm primarily for the reasons stated
in the thorough written opinion of Judge Mala Sundar.
Xpedite is a broadcast fax service incorporated in
Delaware with headquarters in New Jersey. Users of
Xpedite’s services, generally businesses, send their
customer lists, customer contact information, and
documents to Xpedite’s New Jersey headquarters via their
own fax machines, telephone lines, or computer internet
servers. Once the user’s documents and customer lists are
received at Xpedite’s New Jersey headquarters, Xpedite
uses its proprietary software, located on computers in
its New Jersey headquarters, to quickly send out a large
volume of faxes, e-mails, or voice messages. Xpedite’s
software can also add features such as message-opening
tracking and links within the messages that allow its users’
customers to forward the messages to their contacts.
The messages go out through a multi-state network
made up of leased phone lines and some of Xpedite’s own
switching hardware. The messages are tracked to make
sure delivery is successful, and Xpedite compiles reports
at their New Jersey headquarters for its users so they
can see the delivery status of their messages. Xpedite’s
mass e-mail and fax messaging services include a variety
of formats and options. Users are charged per minute or
per page for fax services, per file size for e-mail services,
and per minute for other services.

4a
Appendix B
Instead of sending faxes out individually to their
customers, users send a single transmission through
Xpedite’s system to a list of fax addresses, which will be
distributed to multiple recipients in a matter of minutes.
Users can also upload customer lists and documents
through Xpedite’s website. After the user uploads their
customer list file, the user then uploads the document file
they would like to have sent to their customer list. For
e-mails, Xpedite offers other add-on services.
From its New Jersey location, Xpedite distributes
the document to the user’s customer list by entering
the destinations into its proprietary routing software
program, contained in hardware located in New Jersey.
For faxes, Xpedite’s proprietary software then determines
the “least cost route” (LCR) for fax delivery. The
information is then sent by telephone line, to switches,
called “remote fax delivery controllers” (RFDC), which
are located both inside and outside of New Jersey. The
RFDC then connects to phone lines, both in and out of
New Jersey, to broadcast the messages. If the initial route
is tied up, the broadcast message is re-routed to another
line to facilitate a timely delivery. Intrastate broadcasts
“almost always are done from an out of state []RFDC[]
because interstate rates are usually less than intrastate
rates.”
For e-mails, after a job submission is uploaded to
Xpedite’s website, Xpedite’s program runs checks to
verify all required information is present; validates data;
cancels invalid, duplicate, and blocked addresses; retrieves
lists and profile specifications; creates a basic template for

5a
Appendix B
the message; and incorporates the user’s additions. The
program then creates an individual, customized message
for every recipient and sends them by “forward[ing]
each customized message to the [i]nternet mail server
that handles domain mail for the destination. Once every
message is on its way to its target address, a posting
report is generated, if [the user] requested one.” Once
a connection is made to a carrier’s phone lines, Xpedite
monitors to ensure a successful transmission, then
sends users reports on the results of both fax and e-mail
broadcasts and deliveries.
For the years at issue herein, 1998 to 2002, Xpedite
calculated its receipts and allocated them to New Jersey
according to where it billed its customers, utilizing
N.J.A.C. 18:7-8.10(a). While Xpedite receives all, or nearly
all, orders at Tinton Falls and the orders are processed
and sent out through the Tinton Falls “core platform,”
New Jersey users made up less than ten percent of
Xpedite’s total users in the years at issue.
Xpedite was audited by the State of New Jersey for
Corporation Business Tax (CBT), Gross Income Tax
(GIT), Sales Tax, and Use Tax for the years relevant to this
inquiry. On May 11, 2007, the auditor issued an amended
narrative finding Xpedite had been calculating its receipts
for the period in question as per N.J.A.C. 18:7-8.10(a)
Example Two, which describes a situation
where a taxpayer earns income from long
distance telephone calls. The taxpayer bills
the originators of the long-distance calls. The

6a
Appendix B
example states that the appropriate method
of allocating the long-distance [(LD)] revenue
attributable to services performed in N[ew]
J[ersey] is to base it upon billings for calls
originating in N[ew] J[ersey].
The auditor stated that Xpedite was sourcing sales to the
state where invoices were billed—the address where its
customer’s accounts payable are processed. The auditor
determined that Xpedite is a telecommunication retailer
and not a telecom provider because it does not originate
the carrier signal service (dial tone), but rather uses
the signal much like a freight company uses a toll road.
Xpedite sends customers’ information over the carrier
signal.
Although Xpedite calculated its receipts for the CBT
according to where its customer’s accounts payable are
processed, the auditor found this method did not accurately
calculate New Jersey receipts, did not reflect the trade,
business practice, and economic realities underlying the
generation of charges for the services, and did not reflect
Xpedite’s business activities in New Jersey. Pursuant to
N.J.S.A.54:10A-8 and -10, the auditor suggested three
alternate methods to determine Xpedite’s New Jersey
receipts, all “reflect[ing] a measurement of transmission
origination.” The auditor’s suggested methods were:
[Alternate method one:] Per Jeffrey Carter,
Sales Ta x Billing Manager (6/30/2 0 0 4),
New Jersey is the origination point of all
transmissions, thus the service allocation would
be 100%;

7a
Appendix B
[Alternate method two:] Per Gary Schwerdt,
Manager of Network Cost & Routing (7/26/2004),
approximately 98% of all telecom services
originate in New Jersey, thus the service
allocation would be 98%;
[Alternate method three:] Per Gary Schwerdt,
Manager of Network Cost & Routing (7/26/2004),
59.32% of the RFDC (switching devices) which
receive the transmission from New Jersey are
located in New Jersey. The remaining 40.68%
of the devices are located outside of New Jersey
but are directed by New Jersey. Transmissions
destined for New Jersey are almost always
routed through equipment located outside of
New Jersey. Service allocation would be 89.83%.
Because sales of services originated and were performed
in New Jersey and thus sourced to New Jersey, the auditor
maintained that the receipts factor should be 100%.
However, the auditor was directed by the Division to
instead allocate receipts to New Jersey in accordance with
N.J.A.C. 18:7-8.10(c), which allocates twenty-five percent
of receipts to the state of origin, fifty percent of receipts
to the state where the service is performed, and twentyfive percent of receipts to the state of termination for “a
total of 76.306% of receipts allocable to New Jersey.” On
September 28, 2007, the Division sent Xpedite a notice
of assessment related to its final audit determination,
stating that as a result of the audit, Xpedite was liable
for $4,975,353.02, including penalty and interest, for CBT
and Sales and Use Tax for the years 1998 to 2005. Xpedite

8a
Appendix B
contested the Division’s assessment and the matter was
reviewed.
On August 4, 2010, conferee Nita Vakharia (Conferee
Vakharia) issued a conference report with her findings.
Based on the fact that Xpedite had its main location in
New Jersey, all the faxes and e-mails for mass mailing
originated and were processed in New Jersey, the
equipment was located in New Jersey, and the service was
performed in New Jersey, Conferee Vakharia found that
under United Parcel Serv. Gen. Serv. Co. v. Director, Div.
of Taxation, 25 N.J. Tax 1 (Tax 2009), aff’d, 430 N.J Super.
1, 61 A.3d 160 (App. Div. 2013), aff’d, 220 N.J. 90, 103
A.3d 260 (2014), 100% of the receipts should be allocated
to New Jersey under N.J.A.C. 18:7-8.10(a). Therefore,
because the Division had only apportioned seventy-six
percent of receipts to New Jersey, Conferee Vakharia
upheld the audit assessment based on the twenty-five —
fifty — twenty-five formula under N.J.A.C. 18:7-8.10(c). On
August 6, 2010, the Division issued a final determination
to Xpedite stating the audit assessment had been upheld,
and that $6,160,570 was due.
On November 2, 2010, Xpedite filed a complaint
in the Tax Court of New Jersey, contesting the final
determination regarding the CBT tax allocation only.
Both parties moved for summary judgment and the Tax
Court denied both motions, holding that facts had not yet
been sufficiently developed to decide the percentage of
allocation of Xpedite’s sales receipts properly allocable
to New Jersey. To that end, the Division deposed Gary
Schwerdt, Xpedite’s manager for least-cost routing
and network cost and routing. No one from Xpedite’s

9a
Appendix B
current ownership group or management appeared at
the deposition.
On June 2, 2017, Xpedite again moved for summary
judgment, submitting its secondary public offering filing
and Securities and Exchange Commission (SEC) filings
as evidence of its business model. The Division crossmoved for summary judgment, providing Schwerdt’s
deposition to establish Xpedite’s business model. Xpedite
argued that it should be taxed under N.J.A.C. 18:7-8.10(a),
but not 100% as the auditor originally determined and
which Conferee Vakharia found would be appropriate.
Rather, Xpedite asserted it should be taxed according to
Example Two which demonstrates how a long-distance
telecommunications company, which earns its income
from “the sale of long distance telephone communications
service” and bills the customers who initiate the call
directly for all calls placed by them, should allocate
the receipts to New Jersey based on “billings for calls
originating in New Jersey.”
Xpedite asserted the economic realities of the way
it generates receipts are like a long-distance telephone
service. Xpedite argued given those similarities, it should
source receipts using the same methodology because the
services are performed under the statute at the location
the services are received by the customer. Xpedite
contends the services are received by their users at the
user’s billing location. Xpedite further argued that the
“origination” of the transmission is not in New Jersey, but
at the user’s location when and where the user faxes or
sends their order to Xpedite. Xpedite also asserted that
N.J.A.C. 18:7-8.10 subsection (c) does not apply to them

10a
Appendix B
under United Parcel, as that subsection is only meant for
those businesses that are not located in New Jersey, but
where transactions “barely touch[]” New Jersey.
On September 5, 2018, the Tax Court issued an
order and opinion relying on the SEC filings, Schwerdt’s
deposition testimony, and the undisputed material facts
recited by each party. The court made extensive factual
findings and legal conclusions, denied Xpedite’s motion for
summary judgment, granted the Division’s cross-motion
for summary judgment, and dismissed Xpedite’s complaint.
The Tax Court affirmed the Division’s assessments,
stating that “the material facts are undisputed as are the
documents in support of each party’s summary judgment
motion. Although parties may draw different conclusions
from the undisputed facts and documents, the court is not
bound by the differing interpretations as a reason to deny
summary judgment.”
The Tax Court further found that
[The Division]’s audit determined that Xpedite’s
allocation based on its costs-of-performance
inadequately represented the receipts allocable
to New Jersey. Xpedite provides nothing to
contradict this basis for the CBT assessments.
Rather, it offers an alternate methodology,
namely Example [Two]. An example cannot
trump a statute or regulation. Further, the
language and intent of Example [Two] shows
that it is limited to regulated LD carriers,
[and] thus would not apply to Xpedite. Even
if Example [Two] is deemed to be ambiguous

11a
Appendix B
as to its intendment and reach, it will not
apply to Xpedite because the clear intent of
the controlling statutes and implementing
regulation is an inclusion of all receipts,
pursuant to which, and based on the facts
presented to the court, would require 100% of
Xpedite’s receipts as allocable to New Jersey.
The court noted N.J.A.C. 18:7-8.10(a) is “broadly
intended,” providing that an allocation methodology for
receipts for “services performed within the state” must
“reflect the trade or business practice and economic
realities underlying the generation of the compensation
for services” so that receipts from services are subject to
the CBT and must be allocated to New Jersey if they are
not otherwise apportioned.
Relying on United Parcel, 25 N.J. Tax at 36, the Tax
Court determined that even where users accessing a data
processing service were out-of-state, 100% of receipts
were taxable to New Jersey because the equipment that
performed data processing, as well as the personnel
operating, maintaining, and repairing the equipment,
were all located in New Jersey.
Because Xpedite does have some switching devices
located out-of-state, the court found it was not unreasonable
or arbitrary for the Division to use the twenty-five – fifty
– twenty-five methodology to allocate Xpedite’s receipts.
The Tax Court rejected Xpedite’s argument that it fits
into Example Two of N.J.A.C. 18:7-8.10(a) because at the
time Example Two was promulgated, telecommunications

12a
Appendix B
providers were subject to fees and tariffs, as well as
Federal Communications Commission regulations, none
of which apply to Xpedite. Rather, Xpedite is dependent
on such carriers for its business, transmitting its users’
calls, and for call origination and termination. Finally,
the Tax Court noted that even if the terms in Example
Two are vague, “an example or illustration cannot limit
or expand the statute or the regulation . . . [m]oreover, the
issue in this case is the reasonableness of [the Division’s]
allocation methodology as to which it has ‘broad authority’
to make adjustments which would ‘accurately and fairly’
represent a taxpayer’s ‘activity, business, receipts.’”
(quoting Metromedia, Inc. v. Dir., Div. of Taxation,
97 N.J. 313, 323, 478 A.2d 742 (1984)). The Tax Court
also resolved the apparent inconsistency of Xpedite’s
sales taxes, which are collected for “telecommunications
services,” in that the Sales and Use Tax Act “broadly
defines telecommunications” and
also because the issue here is the allocation of
receipts to New Jersey, where consideration
must be given not just to the nature of services,
but also to the cost of performance and economic
realities, and Example [Two] is limited to an LD
telephone company, of LD telephone calls, and
of toll revenues from LD calls.
The court noted that the “economic reality” of
Xpedite’s business is that
almost everything to do with the fax blasts
[(Xpedite’s services)], occurs in New Jersey

13a
Appendix B
. . . the fact that it uses RFDC’s or POPs [(point
of presence)] located outside New Jersey is only
to lower costs, and does not change the fact
that the transmissions begin in New Jersey
(the [user] is presumably using its own [local
telephone lines] to send its order to Xpedite,
thus, Xpedite cannot claim to be providing
LD telephone services to its customer in this
regard.).
The Tax Court found the Division’s allocation of
receipts was in line with the language and intent of
the controlling statute and regulations, and that its
adjustment to Xpedite’s allocation factor was reasonable
under Metromedia. The Tax Court also found that Xpedite
had not met its burden of overcoming the presumptive
correctness of the Division’s CBT assessments. This
appeal followed.
Our review of a decision by the Tax Court is highly
deferential and “we have a limited scope of review
following a determination of that court.” Estate of Taylor
v. Dir., Div. of Taxation, 422 N.J. Super. 336, 341, 28 A.3d
852 (App. Div. 2011). Because the Tax Court has “special
expertise,” its findings will not be disturbed unless they
are arbitrary or lack substantial evidential support in the
record. Yilmaz, Inc. v. Dir., Div. of Taxation, 390 N.J.
Super. 435, 443, 23 N.J. Tax 361, 915 A.2d 1069 (App.
Div. 2007). Conversely, we review the Tax Court’s legal
determinations de novo. Alcatel-Lucent USA Inc. v. Twp.
of Berkeley Heights, 460 N.J. Super. 243, 249, 214 A.3d
201 (App. Div. 2019).

14a
Appendix B
To understand the receipts allocation factor that
is at issue, it is helpful to understand what the CBT is.
Under the 1998 version of N.J.S.A. 54:10A-2, which was
the audit period at issue in this matter, “[e]very domestic
or foreign corporation” must pay an annual tax “for the
privilege of doing business, employing or owning capital
or property, or maintaining an office, in [New Jersey].”
N.J.S.A. 54:10A-2 (1998). A corporation doing business
in New Jersey that also “maintains a regular place of
business outside [New Jersey] ‘is obligated to pay tax only
on that portion of its entire net income which is allocable
to [New Jersey].’” Flagstar Bank v. Dir., Div. of Taxation,
29 N.J. Tax 130, 147 (Tax 2016) (quoting Stryker Corp. v.
Dir., Div. of Taxation, 18 N.J. Tax 270, 272-73 (Tax 1999)
(citing N.J.S.A. 54:10A-6)).
What is allocable to New Jersey is ordinarily computed
using a formula that multiplies a corporation’s entire net
income by a portion of the corporation’s property value
within New Jersey, a portion of the sales, or “receipts”
from “services performed within [New Jersey],” and the
payroll of the corporation. See N.J.S.A. 54:10A-6(A)-(C);
see also Flagstar Bank, 29 N.J. Tax at 147. This formula
“[limits] taxation under the CBT to only that income
that has a sufficient nexus to New Jersey to satisfy
constitutional constraints on State taxation.” Flagstar
Bank, 29 N.J. Tax at 147 (citing Cent. Nat’l-Gottesman,
Inc. v. Dir., Div. of Taxation, 14 N.J. Tax 545, 552 (Tax
1995)).
When the three-factor allocation formula under
N.J.S.A. 54:10A-6 does not fit in a situation, because
it “does not properly ref lect the activity, business,

15a
Appendix B
receipts, capital, entire net worth or entire net income
of a taxpayer reasonably attributable to [New Jersey],”
the commissioner “may adjust it by . . . (e) applying any
other similar or different method calculated to effect a
fair and proper allocation of the entire net income and the
entire net worth reasonably attributable to [New Jersey].”
N.J.S.A. 54:10A-8(e) (1998).
This section “invest[s] the Director with broad
authority to adjust a [N.J.S.A. 54:10A-6] allocation
factor if it does not properly reflect a taxpayer’s business
activity reasonably attributable to [New Jersey].” Hess
Realty Corp. v. Dir., Div. of Taxation, 10 N.J. Tax 63,
81 (Tax 1988). Here, the record reflects that Xpedite’s
users received the benefit of the service at Xpedite’s
New Jersey headquarters, where the users’ messages
were processed, the users’ messages were monitored,
and the reports on the success or failure of the message
deliveries were compiled and then sent to the users, all
using the proprietary software located on hardware in
Xpedite’s New Jersey headquarters. Xpedite’s users had
to send their customer lists and documents to Xpedite’s
New Jersey headquarters, using local telephone lines or
internet service to which they were personally subscribed,
to be processed before they were sent out.
Xpedite’s services, and the revenues generated from
them, are performed at its headquarters in New Jersey
using its hardware and proprietary software, and given
the holding under United Parcel, 100% of its receipts
could be sourced to New Jersey under subsection (a).
However, unlike the taxpayer in United Parcel, Xpedite
does utilize some out-of-state phone lines and switches in

16a
Appendix B
performing its services, some of which it maintains and
owns. Consequently, even if the New Jersey headquarters
is directing and monitoring the transmission throughout
the entire message delivery, the messages are traveling
through that out-of-state equipment. Therefore, 100%
receipt allocation to New Jersey may not reflect the
realities of its business, and the seventy-six percent
allocation reached by the Division using the twenty-five
– fifty – twenty-five method under subsection (c), even
though it can be inferred that (c) only applies to those
out-of-state businesses with mere contact with New
Jersey, may more accurately reflect the way Xpedite earns
receipts from its services. Under N.J.S.A. 54:10A-8, the
Director exercised broad discretion to adjust a receipts
allocation to reflect the economic realities of Xpedite’s
business.
Therefore, the resulting seventy-six percent allocation
from the Division’s use of the twenty-five – fifty –
twenty-five formula under (c), instead of 100% under
United Parcel, reasonably reflects the portion of Xpedite’s
services performed in New Jersey and was therefore well
within the Director’s discretion.
The Tax Court’s findings are supported by adequate
facts in the record. Further, after a de novo review, we
discern no error. We do not address Xpedite’s remaining
arguments as they lack sufficient merit to warrant
discussion in a written opinion. R. 2:11-3(e)(1)(E).
Affirmed.

17a
AppendixOF
C THE TAX COURT
APPENDIX C — OPINION
COMMITTEE ON OPINIONS TAX COURT OF
NEW JERSEY, DATED SEPTEMBER 5, 2018
NOT FOR PUBLICATION WITHOUT APPROVAL OF
THE TAX COURT COMMITTEE ON OPINIONS
TAX COURT OF NEW JERSEY
September 5, 2018
Richard C. Kariss, Esq.
Zachary T. Gladney. Esq.
Steven L. Penaro, Esq.
Alston & Bird, L.L.P.
90 Park Avenue
New York, New York 10016
Michael J. Duffy
Deputy Attorney General
RJ Hughes Justice Complex, P.O. Box 106
25 Market Street
Trenton, New Jersey 08625
Re: Xpedite Systems, Inc. v. Director, Division
of Taxation Dkt. No. 018847-2010
Dear Counsel:
This is the court’s opinion as to the parties’ second
round of summary judgment motions. The issue is how
much of plaintiff’s income from fax blast services should
be allocated to New Jersey. After an audit, defendant
(“ Taxation”) determined that a 76% allocation is

18a
Appendix C
appropriate under a “25-50-25” methodology prescribed
in N.J.A.C. 18:7-8.10(c) (25% of receipts allocated to the
State in which costs originate; 50% of receipts allocated
to the State in which the service is performed; and 25% of
the receipts allocated to the State in which the transaction
terminates). Taxation accordingly assessed plaintiff with
Corporation Business Tax (“CBT”), plus interest and
penalties, of $6,160,750 for fiscal years 1998-2000, and
2002.
Plaintiff (“Xpedite”) had initially moved for summary
judgement claiming N.J.A.C. 18:7-18(c) was inapplicable,
and the controlling regulation was N.J.A.C. 18:7-8.10(a)
pursuant to the ruling in United Parcel Serv. Gen. Serv.
Co. v. Dir., Div. of Taxation, 25 N.J. Tax 1 (Tax 2009),
aff’d, 430 N.J. Super. 1 (App. Div. 2013), aff’d, 220 N.J.
90 (2014), specifically, Example 2 therein (“Example 2”),
therefore, the assessments were void as a matter of law.1
N.J.A.C. 18:7-8.10(a) explains how the numerator portion
of the receipts fraction (for purposes of computing the
allocation percentage to New Jersey) is to be calculated,
and states that where services are performed inside and
outside New Jersey, the receipts are determined “based
upon the cost of performance or amount of time spent in the
performance of such services or by some other reasonable
method that should reflect the trade or business practice
1. In United Parcel, the court had applied the pre-1997
version of N.J.A.C. 18:7-8.10(a) which provided that “[r]eceipts
from services performed within New Jersey are allocable to New
Jersey.” Pre-1997 amendment, there was no 25-50-25 formula
in N.J.A.C. 18:7-8.10(c), and Example 2 was contained in this
subsection.

19a
Appendix C
and economic realities underlying the generation of the
compensation for services.” Example 2 states that where
a taxpayer earns income from the “sale of long distance
telephone communications service,” it should allocate
its “long distance toll revenues attributable to services
performed in New Jersey . . . based upon billings for calls
originating in New Jersey.” Ibid.
Taxation cross-moved for summary judg ment
contending that its assessments are presumptively
correct, and that Xpedite’s receipts would be allocatable
100% to New Jersey even under N.J.A.C. 18:7-8.10 (a) and
United Parcel.
The court denied both motions holding that Taxation’s
assessments are presumptively correct and cannot be
voided, unless it is proven to be aberrant and unreasonable.
Since it was undisputed that Xpedite had in-State and
out-of-State customers, and facts were needed to decide
the percentage of allocation of Xpedite’s sales receipts
properly allocable to New Jersey, which facts were yet
to be developed, the court denied summary judgment to
both parties.
These instant second round of summary judgments
then followed. Both parties claimed discovery is complete,
no further facts are needed, and per Taxation, no more
facts can be elicited since Xpedite claims that it has no
employees with knowledge relevant to the issues herein
for the tax years involved. Xpedite argues that its income
should be allocated to New Jersey under Example
2, and its filings with the Securities and Exchange

20a
Appendix C
Commission (“SEC”), along with its parent’s such filings,
proves that it competes with common carriers such as
AT&T or MCI, therefore, it is providing long distance
(“LD”) telephone communications services illustrated
in Example 2. Taxation disagrees on grounds Xpedite
is not a LD telephone company such as AT&T, and thus,
is not a provider of LD telephone calls/services, which
earns income from LD telephone calls. Without credible
non-hearsay proof to the contrary, Taxation argues, its
presumptively correct assessments must stand.
For the reasons following, the court affirms the
assessments. Taxation’s audit determined that Xpedite’s
allocation based on its costs-of-performance inadequately
represented the receipts allocable to New Jersey. Xpedite
provides nothing to contradict this basis for the CBT
assessments. Rather, it offers an alternate methodology,
namely Example 2. An example cannot trump a statute or
regulation. Further, the language and intent of Example
2 shows that it is limited to regulated LD carriers, thus
would not apply to Xpedite. Even if Example 2 is deemed
to be ambiguous as to its intendment and reach, it will not
apply to Xpedite because the clear intent of the controlling
statutes and implementing regulation is an inclusion of
all receipts, pursuant to which, and based on the facts
presented to the court, would require 100% of Xpedite’s
receipts as allocable to New Jersey.
FACTS
In May 2007, Taxation completed an audit of
Xpedite for tax years 1998 through 2005, for CBT, and

21a
Appendix C
for Sales & Use tax (“SUT”). The auditor examined
records and had discussions with Xpedite’s accountants
(PricewaterhouseCoopers, LLP, “PwC”), and Xpedite’s
employees, Jeffrey Carter (Manager, Sales Tax Billing)
and Gary Schwerdt (Manager, Network Cost & Routing).
Based on such information, the auditor described
Xpedite as a telecommunications retailer which used
carrier signals to send information on behalf of its
customers, “much like a freight company uses a toll road,”
thus was not a “telecom provider,” which originated
carrier signals (the dial tone). Xpedite’s business was
providing “mass messaging services via fax, e-mail and
voice,” with the mass faxing being the source of the “vast
majority of sales.” Its New Jersey headquarters was the
“hub for the application of the software and the location for
most of the hardware,” and was also “the origination and/
or destination point of all telecommunication services.”
All transmissions originate in New Jersey, and then
are transmitted, using telephone lines, via the least cost
route, which is determined by Xpedite’s software after
the destination is entered into the software program. The
transmission is sent to a remote fax delivery controller
(“RFDC”), which is located in or out of State, and connects
to another telephone line, in or out of State. If the first
choice of the route has a long queue, the broadcast would
be routed to the next best least cost route. Interstate
and intrastate broadcasts are done from an out-of-state
located RFDC since interstate rates are lower. The
auditor also noted that the out-of-State locations were
“mainly sales offices,” and about 50% of Xpedite’s payroll
were New Jersey employees.

22a
Appendix C
In examining the allocation of receipts, the auditor
found that Xpedite apportioned sales based on payroll,
with most of the out-of-State wages for sales persons,
but then, as to New Jersey sales, Xpedite reallocated
them to other States and about $75 million to a category
“other.” He noted that if the sales were to be allocated
based on Xpedite’s cost of performance (i.e. wages), then
it would result in about $58 million “of NJ sales and not
the $4,786,072 as reported” on the CBT returns. He thus
deemed Xpedite’s apportionment of its sales receipts to
New Jersey as unrealistic since its cost-of-performance
computation did not “accurately reflect New Jersey
receipts,” or “the trade, business practice and economic
realities underlying the generation of charges for the
services,” or Xpedite’s “business activities” in New Jersey.
As permitted by N.J.S.A. 54:10A-8, and -10, he rejected
Xpedite’s receipts allocation method.
His discussions with Mr. Carter and Mr. Schwerdt
revealed that New Jersey was the origination point of all
transmissions; 60% of the switching devices were located
in New Jersey; the switching devices located outside New
Jersey are nonetheless “directed by” New Jersey; and
transmissions destined for New Jersey are routed through
equipment located out-of-State. He therefore concluded
that 98%-100% of Xpedite’s sales receipts are allocable to
New Jersey because, (1) Xpedite had significant property
in New Jersey used in performance of the services; (2)
New Jersey was the origination of all transmissions, i.e.
sent out from New Jersey “via telephone lines;” and, (3)
the “hardware and software that determines the least cost
route, directs, controls and originates the transmissions,”

23a
Appendix C
are in New Jersey. If, however, the out-of-State location of
the switching devices were considered, then 89.8% would
be allocable to New Jersey.
However, pursuant to a meeting between PwC and
Taxation’s upper management, the auditor was directed
to allocate receipts based on the 25-50-25 formula
contained in N.J.A.C. 18:7-8.10(c). This resulted in 76.36%
of Xpedite’s sales receipts being allocated to New Jersey
(25% of receipts allocated to State of origination which
was New Jersey, plus 50% of receipts allocated to the
State where the service is performed, which was also New
Jersey, plus 1.306% of the 25% of receipts allocated to the
State of termination, i.e. to New Jersey). The consequent
CBT assessment was $495,288 (1998); $848,170 (1999);
$1,006,898 (2000); and $35,176 (2002), totaling $4,923,285
inclusive of interest and penalty. 2

2. As to SUT, the auditor found that the amounts reported on
Xpedite’s SUT returns as compared to the CBT returns differed
“by several million dollars” because Xpedite only reported what
it deemed to be New Jersey taxable sales, which was determined
using a “2 out of 3 rule,” i.e., if two of the following three conditions
were met, it made the sale taxable: (1) origination of a call
(default is New Jersey); (2) customer’s billing address; and (3) call
destination. If (1) and (3) were in New Jersey, it was a taxable sale;
if (2) and (3) were “same,” tax was collected based on the rate of
the “destination State;” if (1) and (2) were the “same,” all sales
were taxable at for New Jersey customers at the New Jersey sales
tax rate. The auditor essentially accepted this methodology and
imposed $39,040 as SUT for sales which either were untaxed, or
taxed by other States at a lower rate. Xpedite did not contest this
assessment.

24a
Appendix C
Xpedite protested the audit’s CBT assessment
contending that N.J.A.C. 18:7-8.10 did not apply to it,
except maybe Example 2 of subsection (a) because that
was “similar to [its] business model.” Taxation’s conferee
rejected Xpedite’s reported allocation (i.e. 5%-7%) as not
reflective of the underlying economic reality. She found
that since most faxes originate in this State, where all the
services are performed, and the equipment is located, the
allocation should be 100% under N.J.A.C. 18:7-8.10(a), and
United Parcel. She upheld the auditor’s allocation.
In the instant motions, neither party disputes the
factual assertions in the audit and conference reports.
Xpedite disagrees with Taxation’s conclusions, and
provided its 1995 IPO (initial public offering) filing, 1996
annual filing with the SEC, as well as the SEC filings of
its parent Premier Technologies, Inc. (“PTI”) (for 1998),
and of PTEK Holdings, Inc. (for 1999-2002), as evidence
of its business model. Taxation claims that the SEC
filings were un-authenticated and inadmissible hearsay.
Taxation provided the deposition testimony transcript of
Mr. Schwerdt, as evidence of Xpedite’s business. 3 Xpedite
claimed that Mr. Schwerdt was merely a financial analyst,
thus was not qualified as an expert, and lacked knowledge,
as to the nature of Xpedite’s business, which rendered his
deposition testimony unreliable because it is lay opinion.
The court rejects both these positions. The SEC
filings are publicly available documents, and need not be
3. In response to Taxation’s subpoena, Xpedite claimed
it could not locate Mr. Schwerdt. Taxation then independently
located the individual and procured his deposition.

25a
Appendix C
rejected due to lack of formal authentication. See N.J.R.E.
201 (facts which may be judicially noticed include “specific
facts and propositions of generalized knowledge which are
capable of immediate determination by resort to sources
whose accuracy cannot reasonably be questioned.”);
Oran v. Stafford, 226 F.3d 275, 289 (3d Cir. 2000)
(“‘[T]he documents are required by law to be filed with
the SEC, and no serious questions as to their authenticity
can exist,” especially if they are used to “determine what
the documents stated.’”) (quoting Kramer v. Time Warner,
Inc., 937 F.2d 767, 774 (2d Cir. 1991)4); In re Rockefeller
Ctr. Properties Sec. Litig., 184 F.3d 280, 293 (3d Cir.
1999) (court is authorized “to take judicial notice of all
public disclosure documents which are either required
to be filed with the SEC or are actually filed with the
SEC.”) (Nygaard, J, concurring in part and dissenting
in part). 5 Additionally, R. 1:6-6 does not apply since the
documents produced in support of its summary judgment
motion were discovery materials. While it is true that the
management’s statements in the SEC filings are being
offered for the truth of the matter, viz. as evidence as
to the nature of Xpedite’s business, the essence of the
descriptions in those documents are almost identical to
the representations made by Xpedite to Taxation during
4. The ruling applied only “to public disclosure documents
required by law to be filed, and actually filed, with the SEC,
and not to other forms of disclosure such as press releases or
announcements at shareholder meetings.” Kramer, 937 F.2d at 774.
5. In that case, the counsel for the party submitted an
affidavit authenticating copies of the annual reports filed with the
SEC. In re Rockefeller Ctr. Properties Sec. Litig., 184 F.3d at 293.

26a
Appendix C
audit, and in the course of this litigation, and recited in
the audit and conference report, both of which documents
are undisputed. Similarly, Mr. Schwerdt’s deposition
testimony as to Xpedite’s business operations largely
conforms to Xpedite’s management’s statements in the
SEC filings. That he does not consider Xpedite as a LD
telephone provider is not germane, because the court is
not using his views in this regard to decide the matter.
Based on these documents, as well as the undisputed
material facts recited by each party, the court finds the
following facts as to Xpedite’s business. Xpedite is a
Delaware-incorporated entity and headquartered in New
Jersey. Its stock is publicly traded. Its Data Center, a
large operations center, is in Tinton Falls, and it also uses
a facility in Piscataway as an operations or backup center.
It was acquired in February 1998 by PTI, a Georgia-based
company, which changed its name to PTEK Holdings, Inc.
Xpedite delivers business advertisements/messages/
information on behalf of its customers who/which are
predominantly financial service companies and travel
agencies. It provides basic and enhanced fax services.
A customer sends the information to Xpedite, with a list
of fax addresses, which Xpedite then blasts to multiple
recipients. The customer can electronically send its order
to Xpedite from the customer’s location, using either the
customer’s fax machine or computer, using local or long
distance phone company lines that it subscribes to. It can
also upload the desired list of targets with the targets’
fax numbers on Xpedite’s webpage (after logging in as
Xpedite’s customer). Xpedite’s system would either store
and then forward the fax, or would connect the customer’s

27a
Appendix C
fax to the recipient’s fax, for immediate delivery. A
customer could also send a message from its computer,
which will be routed through Xpedite to the recipient.
All orders are received in New Jersey, at Tinton
Falls. Xpedite then ensures its delivery electronically,
through the quickest and cheapest means, from the Tinton
Falls Data Center. After a fax blast, Xpedite’s computer
systems track the transmission and delivery to ensure
delivery was complete. Thus, what would normally take
hours for a customer in sending multiple faxes, can be
done within minutes by Xpedite, and saves customers
time and money, with the added benefit of knowing that
the document was delivered.
Xpedite charges its customers based on per domestic
minute or per page for a broadcast fax, or based on file
size, or per domestic minute for voicemail. Separate rates
are charged for international transmissions. Xpedite’s
revenues are thus from broadcast deliveries, and based on
time (per-minute) of LD service usage, and upon volume
for e-mail distributions. The contract also showed an
additional “minimum commitment” fee or charge, and
services such as “fax response, FOD, VR Hokey Transfer,
BANNERfx, etc.” was at a certain dollar amount not
based on per-minute or per-page. Xpedite negotiates
“lower rates with its primary telecommunications service
providers,” to increase its profit margins, and uses “least
cost routing to reduce its telecommunications costs,
including direct interconnections with local exchange
carriers,” which allows Xpedite to provide its high-volume
customers discounts or better pricing.

28a
Appendix C
Xpedite performs its services using computers,
software, ser vers, routers, sw itches, third party
communication equipment and switching centers, and
leased telecommunication lines connecting these systems
using nodes (equipment which allows access to or egress
via a local telephone call, a.k.a. a point-of-presence or
POP). The nodes allow for faxes to be sent and terminated
using inexpensive local calls, instead of more expensive
LD or international calls as the leased telecommunications
lines “provide the reliable, continuous, high-speed
throughout required for delivery” of the immediate or
“real time” faxes. Outbound faxes are delivered through
the POPs for transmission by an LD carrier.
A sketch (provided by Xpedite to Taxation during the
audit) depicted Xpedite’s business as follows:

29a
Appendix C
So that the transmissions are not interrupted (due
to power outages or other issues), Xpedite uses a variety
of carriers to transmit its telecommunication traffic, and
uses a variety of telecommunications routing technology,
including using a fiber-optic connection with Bell Atlantic,
which allows immediate re-routing of traffic. Thus, in a
power outage affecting a “terminating carrier,” Xpedite
would switch the calls to another terminating carrier.
Xpedite does not own any of the telephonic cable or
electronic transmission lines. Rather, it uses third-party
communications and network equipment such as telephone
lines, servers, routers, and third party switching centers,
which are located throughout the country, to transmit
the fax-blasts or e-mail blasts. Neither Xpedite (nor PTI
or PTEK) own a transmission network, and therefore,
depend on common carriers such as MCI, AT&T, and other
“facilities-based carriers” for transmitting the LD calls,
and depend upon Local Exchange Carriers (“LECs”) or
Competitive LECs (“CLECs”) for “call origination and
termination.”6 The telecommunications lines are leased
from a several major “telecommunications carriers”
6. LECs are “local telephone companies that provide
traditional land-line phone service,” and “typically serve a small
local service area covering a few local ‘exchanges,’ which are
designated by the first three numbers of a seven-digit phone
number.” Sw. Bell Tel. Co. v. V247 Telecom L.L.C., 207 F. Supp.
3d 688, 690-91 (N.D. Tex. 2016). The Telecommunications Act of
1996 created CLECs by “open[ing] the market to competition,
allowing different carriers to serve the same exchange area.”
Ibid. The prior monopolies are the Incumbent Local Exchange
Carriers (“ILECs”).

30a
Appendix C
on a short term or multi-year basis pursuant to supply
agreements, sometimes “with an option to upgrade to
higher speed lines, and generally billed on a monthly
basis.” Such leased “capacity” on a common carrier’s
“backbone” enabled Xpedite and its sister companies
to provide connectivity and data transmission within
its “private data network,” and its “hub equipment is
co-located at various MCI WorldCom sites.” PTEK
also relied “primarily upon leased network facilities of
other telephone companies,” did not “own a transmission
network,” and depended on LECs and CLECs “for call
origination and termination.” 7
All the SEC filings cautioned that the business’ success
depended not only upon obtaining telecommunication
services on favorable terms from LD carriers for the
transmission of the customers LD calls, but also upon the
“cooperation of both interexchange and LECs or CLECs
in originating and terminating service” for the customers
“in a timely manner.” Loss of the “ability to receive or
terminate calls would” produce a significant revenue
loss to Xpedite’s corporate family. Similarly, the ability
“to maintain network connectivity” depended on “access
to transmission facilities provided MCI WorldCom or an
alternative provider,” and thus, inability to continue the
agreement with MCI, including the co-location, could lead
to revenue loss.
7. The SEC filings also stated that the company or sister
companies, including Xpedite, purchase LD services from MCI,
Cable & Wireless Communications, Inc., Worldcom, and other
“national post, telephone and telegraph” (“PTT”) companies, “to
carry fax traffic that is routed to destinations where” Xpedite did
not have nodes.

31a
Appendix C
The SEC documents claim that AT&T, MCI WorldCom,
Sprint, and other PTT companies are competitors because
they provide certain enhanced fax communication services.
They also describe only Premiere Communications,
Inc. (“PCI”), one of the subsidiaries, as being a LD
telecommunications/operator services, regulated by the
Federal Communications Commission (“FCC”). PCI
was initially reported as having either “applied for and
received . . . all necessary certificates or authorizations
to provide intrastate, [LD] services,” subject to the State
public utility commission control. In later years’ SEC
filings, it was reported as being authorized to provide
such service in 46 states.
Mr. Schwerdt, who analyzed rates charged by various
“telecom companies,” stated that Xpedite was a
broadcast and transactional fax delivery
company for documents . . . . [M]y dealings
was trying to keep the costs under control,
the lowest – again, referring to the least-cost
routing system which is in existence since what
I’ve more or less managed. In other words
. . . the business model is such where we obtain
rates from larger – predominantly the large
carriers, and rates vary across those carriers,
and my job was to find the least-cost route
for a particular dialed number to determine
. . . where we wanted to use that carrier in our
system.
If a customer needed immediate fax delivery, and since
Xpedite had only “so much capacity at various locations

32a
Appendix C
across the nation,” the fax would “go into a queue, and if
that queue is filled up and it’s taking too long, it would
need to be jumped to a different carrier or a different
route” through POPs or nodes (typically owned by the
LD carrier), so that the fax is delivered immediately.
This could be costly due to higher rates attributable to
dealings with various carriers, including local carriers,
however, Xpedite “predominantly dealt w ith” LD
carriers, or regional carriers (if cheaper). The “last mile”
of the message’s delivery path (i.e. closest to the fax’s
destination) was “always [a] local carrier.” Xpedite rented
connections from such carriers, and was billed per minute.
Thus, its costs were the billed minutes plus the cost of
leasing the lines from a carrier such as Bell Atlantic or
any other out-of-country carrier, plus equipment such as
computer servers. 8
ANALYSIS
Summary judgment will be granted only “if the
pleadings, depositions, answers to interrogatories and
admissions on file, together with the affidavits, if any,
show that there is no genuine issue as to any material
fact challenged and that the moving party is entitled to
a judgment or order as a matter of law.” R. 4:46-2(c). The
court finds that summary judgment is an appropriate
mechanism because the material facts are undisputed as
8. In his deposition, Mr. Schwerdt claimed not to have
recollected speaking with the auditor or anyone from Taxation
during the audit. However, the auditor’s report contained almost
an identical description of Xpedite’s business based on information
from Mr. Schwerdt. See supra p.4.

33a
Appendix C
are the documents in support of each party’s summary
judgment motion. Although parties may draw different
conclusions from the undisputed facts and documents,
the court is not bound by the differing interpretations as
a reason to deny summary judgment.
The CBT is imposed on the income allocable to (i.e.
sourced to) New Jersey. N.J.S.A. 54:10A-6.9 The allocation
is achieved by dividing the “New Jersey property,
receipts, and payroll, respectively,” with the entity’s
“total (real and tangible) property, business receipts,
and payroll, respectively,” as averaged. Stryker v. Dir.,
Div. of Taxation, 168 N.J. 138, 148 (2011). The “combined
fraction is then applied to the” entity’s entire net income,
so that the “the percentage or portion of” the income is
“properly attributable, and thus taxable, to New Jersey.”
Metromedia, Inc. v. Dir., Div. of Taxation, 97 N.J. 313,
323 (1984). Taxation has the “broad authority to adjust
the allocation factor in order to reflect more accurately
and fairly the activity, business, receipts . . . or entire net
income of a taxpayer reasonably referable to the state.”
Ibid.
The receipts portion of the numerator is to include
receipts from, among others, “services performed within
the state.” N.J.S.A. 54:10A-6(B)(4). For the tax periods at
issue here, the interpretive regulation provided as follows:

9. A corporation’s income was 100% allocable to New Jersey
if it did not maintain a “regular place of business” outside New
Jersey. This provision was abrogated in 2008. L. 2008, c. 120 §2.

34a
Appendix C
The numerator of the receipts fraction developed
in accordance with this section includes receipts
from services not otherwise apportioned under
this section. If the service is performed both
within and outside this State, the numerator
of the receipts fraction includes receipts from
services based upon the cost of performance or
amount of time spent in the performance of such
services or by some other reasonable method
which should reflect the trade or business
practice and economic realities underlying the
generation of the compensation for services.
“Cost of performance” is defined as all direct
costs incurred in the performance of the service,
including direct costs of subcontractors.
[N.J.A.C. 18:7-8.10(a).]
For instance,
Taxpayer earns income from the sale of
[LD] telephone communications service. It
bills the originators of [LD] telephone calls
directly and for all calls placed by them. The
appropriate method of allocating its [LD] toll
revenues attributable to services performed
in New Jersey is based upon billings for calls
originating in New Jersey.
[N.J.A.C. 18:7-8.10(a), Example 2.]

35a
Appendix C
Prior to 1997, Example 2 used to be contained in
subsection (c) of N.J.A.C. 18:7-8.10. It was inserted in
1984 in connection with regulatory amendments due to
the ruling in Metromedia, Inc. which had voided a CBT
allocation based on an audience share on grounds that
Taxation’s determination was invalid rule-making. See
16 N.J.R. 3420(b) (Dec. 17, 1984). Taxation explained
that in “adding a rule regarding the radio and television
industry, . . . [it] also decided to add additional rules that
dealt with services performed partially within this State
and partially outside this State,” for purposes of N.J.S.A.
54:10A-6(B)(4) (the numerator portion of the allocation
factor). 16 N.J.R. 3420(b). In this process of “putting into
rule form [Taxation’s] policies and practices,” it added
“examples to better explain” those policies, such as the
LD telephone example. Ibid.10
In 1997, Taxation “updated and restructured” N.J.A.C.
18:7-8.10 “to show more clearly [Taxation’s] emphasis on
the cost of performance for sourcing purposes for receipts
10. The pre-1997 version of subsection (c) addressed the
allocation of “a lump sum is received by the taxpayer in payment
for services within and without New Jersey.” N.J.A.C. 18:78.10(c) (pre-1997). As to such payment, “the amount attributable
to services performed within New Jersey is to be determined on
the basis of the relative values of, or amounts of time spent in the
performance of those services within and without New Jersey,
or by some other reasonable method which should reflect the
trade or business practice and economic realities underlying the
generation of the compensation for services.” Ibid. Example 1
illustrated allocation of receipts from advertising “in the course
of broadcasting television or radio services.” Example 2, as noted
above, illustrated allocation of LD telephone toll revenues. Ibid.

36a
Appendix C
from services.” See 29 N.J.R. 3426(a) (Aug. 4, 1997). They
also explain “the use of the locations of the origination
and termination in these transactions,” and “describe[]
a formula for the proper treatment of receipts as the
result of use of certain machines through credit cards and
internet access where the taxpayer otherwise has nexus
with New Jersey.” Ibid. Subsection (a) was amended, and
the substantive portion of the then-existing subsection (c),
as well as Example 2, were moved to subsection (a). See
29 N.J.R. 4324(a) (Oct. 6, 1997). The prior subsection (c)
was replaced by the 25-50-25 allocation formula as follows:
(c) Certain service fees from transactions
having contact with this State are allocable to
New Jersey based upon the following:
1. Twenty-five percent of such fees are
allocated to the state of origination.
2. Fifty percent of such fees are allocated
to the state in which the service is performed.
3. Twenty-five percent of such fees are
allocable to the state in which the transaction
terminates.
[N.J.A.C. 18:7-8.10(c).]
For instance, if an entity provides “on-line internet
access,” with equipment for such purposes “located
outside” the State, to customers within and without the
State, then it must allocate 50% of “revenue from internet
access charges to New Jersey based upon the origination

37a
Appendix C
and termination of such access from points within New
Jersey.” N.J.A.C. 18:7-8.10(c), Example 2. If the “points
of origination and termination,” cannot be specifically
identified, then, “the customer’s billing address will
serve to locate these activities.” Ibid. See also United
Parcel, 25 N.J. Tax at 37 (Example 2 means that due to
the “essential” equipment’s location “outside this State,
transactions occurring in New Jersey, but using equipment
located outside this State, have only “‘contact’ with New
Jersey” therefore, there is a “percentage allocation of
revenue . . . .”).
Initially, it is important to note that an example does
not, in and of itself, control, expand or limit the general
intent and scope of either the implanting statute or its
interpretive regulation. See Praxair Tech., Inc. v. Dir.,
Div. of Taxation, 201 N.J. 126, 139-40 (2009) (rejecting
the taxpayer’s argument that until the regulation
provided an example, taxpayer’s “business arrangement
with its corporate parent became” taxable, and that “tax
liability somehow can flow from a regulatory change,” and
holding that although Taxation’s regulatory powers are
“circumscribed by the taxing authority in fact conferred
by the Legislature,” nonetheless, “the legislative intent
behind the [CBT] Act is for [Taxation] . . . to give the tax
its broadest reach constitutionally permissible;” thus,
Taxation does not require “a precise regulatory example”
to enforce imposition of the CBT); Cosmair, Inc. v. Dir.,
N.J. Div. of Taxation, 109 N.J. 562, 570 (1988) (a State
agency “cannot extend a statute beyond its language to
expand its effect.”)

38a
Appendix C
Here, N.J.S.A. 54:10A-6(B)(4) is worded broadly
to include receipts for “services performed within the
state.” N.J.A.C. 18:7-8.10(a), the implementing regulation
is also broadly intended by providing that an allocation
methodology must “reflect the trade or business practice
and economic realities underlying the generation of the
compensation for services,” so that receipts from services
are subject to the CBT, and if not otherwise apportioned,
must be allocated to New Jersey. Under this controlling
principle, the court is not required to focus only on an
example as the correct allocation methodology.
It is undisputed that Xpedite has in-State and outof-State customers. Xpedite receives all of its customers’
orders, i.e. the information to be mass-delivered or blasted,
at its operations centers in Tinton Falls and/or Piscataway,
and disseminates the same from New Jersey to recipients
both within and outside the State. The hardware and/
or software used to receive the customer’s orders, and
to determine the least cost route for transmission of the
information required to be blasted or mass-delivered,
are located in New Jersey. Xpedite’s business model
sketch endorses Taxation’s conclusion that Xpedite’s
hub is in New Jersey, New Jersey is where the services
are performed, and New Jersey is where the significant
tangible and intangible property required to initiate, and
perform the services is located. Consequently, Taxation’s
allocation methodology, i.e. using the 25-50-25 formula
under N.J.A.C. 18:7-8.10(c), is not patently unreasonable
or invalid.

39a
Appendix C
Additionally, Taxation’s regulations are not solely
focused on the customer base. See, e.g., United Parcel,
25 N.J. Tax at 36 (rejecting the taxpayer’s argument that
its data processing receipts should be allocated based
on location of its customers similar to the example of
allocation to “the location of originators of long distance
calls,” because “the users of the service” of the taxpayer
“contact and interact with the equipment [in New Jersey]
remotely.”). The court found that 100% of the receipts
were taxable (i.e. sourced to New Jersey) because “[t]he
equipment performing the data processing was located
in New Jersey, and the personnel necessary to operate,
maintain and repair the equipment also were located in this
State.” Id. at 36-37. The fact that the “users of the service
having equipment necessary to access the information
generated in New Jersey were located outside of this
State does not alter the fact that the services producing
the revenue subject to tax all were performed within New
Jersey.” Id. at 37. The court noted that the two examples
in N.J.A.C. 18:7-8.10(c) evidenced that equipment location
is of “significance,” thus, supported its conclusion, since if
the taxpayer had equipment outside New Jersey, then its
receipts would very likely be allocated under the 25-50-25
rule. United Parcel, 25 N.J. Tax at 37. This is precisely
how Taxation’s auditor allocated the receipts.
The court does not consider N.J.A.C. 18:7-8.10(c) as
limited to internet access providers. That is simply an
example of how subsection (c) can be applied. Therefore,
although Xpedite is not in the business of providing
the services of internet access to the public, it does not
foreclose application of that regulation to Xpedite.

40a
Appendix C
It is true that the 25-50-25 rule addresses “fees” for
services, such as, for example, fees for internet access,
or “service income fees” for cash advances to credit card
users. It does not appear that all of Xpedite’s charges
include flat fees. Nonetheless, this does not render
the assessment invalid, nor does it require the court
to fit Xpedite’s revenues into Example 2, as a default
mechanism. Xpedite still charges fees for its services,
plus a “minimum commitment” fee, as well as flat fees for
other services. Those receipts would still be taxable under
N.J.S.A. 54:10A-6(B)(6) as “all other business receipts.”
See, e.g., Bank of Am. Consumer Card Holdings v. Dir.,
Div. of Taxation, 29 N.J. Tax 427, 460 (Tax 2016) (rejecting
an argument that when services are not performed in
New Jersey, then credit card fees are not allocable under
N.J.S.A. 54:10A-6(B)(4), and when so excluded cannot be
included under N.J.S.A. 54:10A-6(B)(6), thus, “should be
excluded from the numerator of the allocation fraction in
toto.” Such an argument, the court held, would “ignore[]
subsection 6,” which is a catch-all provision). Based on
factual representations that some POPs and/or switching
devices are located out-of-State, it was not unreasonable
nor arbitrary for Taxation to use 25-50-25 as an allocation
method for sourcing Xpedite’s receipts.
Does Xpedite fit within Example 2 so that its receipts
allocable to New Jersey are limited to the “billings
for calls originating in New Jersey”? As noted above,
Example 2 addresses the allocation of LD “toll revenues,”
from the sales of “long distance telephone communications
service.” Xpedite claims it sells LD telephone services.
Taxation argues Xpedite is not a LD telephone company,

41a
Appendix C
i.e. one which is regulated and licensed by the FCC, or the
traditional ILEC such as AT&T. Therefore, per Taxation,
Xpedite cannot provide, thus, sell LD telephone services.
Example 2 does not define what comprises “[LD]
telephone communication services.” It does not require
the seller to be a telecommunications provider or carrier,
or a LD telephone company such as AT&T. It does not
define “originators” or “toll revenues.” However, when
considered in the time and context in which Example
2 was promulgated, Taxation’s argument limiting the
illustration to an FCC licensed LD telephone carrier is
not unreasonable.
As explained above, Example 2 was promulgated in
1984, and in reaction to Metromedia. See 16 N.J.R. 3420(b).
It was re-structured in 1997, however, until then (or at
least until 1996) “local telephone markets were monopolies
of each” ILEC, such as AT&T. Sw. Bell Tel. Co., 207 F.
Supp. 3d at 692. Even after the monopolies were broken
up by an amendment to the federal telecommunications
law in 1996, telecommunications providers were still
subject to several fees and “tariffs,” see id. at 693-94, as
well as being regulated by the FCC. See also N.J.S.A.
54:4-1 (defining a “local exchange telephone company” as
a “telecommunications carrier providing dial tone and
access to 51% of a local telephone exchange”); Verizon N.J.
Inc. v. Borough of Hopewell, 26 N.J. Tax 400, 407-10 (Tax
2012) (after the breakup of AT&T in 1984 “[c]ompetitive
[LD] telephone service . . . was offered by carriers such
as the post-divestiture AT&T, MCI and Sprint,” and after
the 1996 federal telecommunications statute was passed,

42a
Appendix C
the LECs increased and the ILECs provided the majority
of “end-user connections for land line . . . local telephone
services in New Jersey . . . .”).
Thus, it is not unreasonable to construe Example 2 as
applying to a carrier, which is regulated and licensed by
the FCC, such AT&T, MCI, or Verizon or other licensed
LECs or CLECs, which originate the carrier signals.
Based on the facts above, Xpedite is not a carrier; is not
licensed by the FCC (even if its sister company, PCI is
licensed); is not paying common carrier tariffs required
by the FCC; is not licensed or authorized by New Jersey
agencies regulating utilities as a LD telephone provider
or carrier; and is fully dependent on third-party LD
telephone companies and local telephone companies in
the performance of, and for the success/longevity of its
business; in transmitting its customers’ LD calls, and for
call origination and termination. Cf. RCN Telecom Serv.,
Inc. v. Dir., Div. of Taxation, 25 N.J. Tax 409, 421 (Tax
2010) (rejecting Taxation’s argument that the taxpayer,
who had for purposes of the SUT exemption, provided
“as proof that it was a service provider subject to the
jurisdiction of the FCC . . . a list of licenses granted by
the FCC,” should still show that it was “licensed in New
Jersey” to be exempt).11
11. Xpedite’s claim that it need not be licensed but is still
“subject to” FCC’s jurisdiction, does not change this conclusion
since any entity can be liable for using faxes for sending unsolicited
advertisements. See 47 U.S.C. § 227 (b)(1)(C), making it unlawful
to “use any telephone facsimile machine, computer, or other
device to send, to a telephone facsimile machine, an unsolicited
advertisement.”

43a
Appendix C
Does the fact that Xpedite leases LD telephone
services from third party LD carriers such as AT&T,
and uses those carriers’ telephone lines, network, and
communications facilities to make telephone calls to
perform its fax blast services render it as a provider
selling LD telephone services, and deriving income from
LD “toll revenues”? The court thinks not. Xpedite uses
LD carriers and their telephone network, telephone lines,
POPs and the like, depending on which is the cheapest
(i.e. least cost routing), and enhances the same by offering
its “fax broadcast” and “gateway services.” It is still
AT&T or a similar carrier that is providing LD telephone
communication services. Verily, Example 2 addresses an
entity which earns income from “sale” of LD telephone
services, not an entity which “provides” such services.
However, as noted above, when considered in the time
and context of the example’s promulgation, there was no
distinction between the two, since only a provider, i.e., an
FCC licensed carrier, could sell such services, not entities
such as Xpedite which used those carrier signals, and
are not licensed by the FCC as a long distance telephone
communications provider. See, e.g., In re Fed.-State Jt.
Bd. on Univ. Srvc., 13 F.C.C. Rec. 11501, 11520-21, n.78
(Apr. 10, 1998) (“[W]here users rely on the public switched
network to reach the information service provider, it is the
telephone company, not the information service provider,
that is offering to the public transmission over the public
switched network. The information service provider,
therefore, is not providing telecommunications service,”
and “[w]hen an entity offers subscribers the capability
for generating, acquiring, storing, transforming,
processing, retrieving, utilizing or making available

44a
Appendix C
information via telecommunications, it does not provide
telecommunications; it is using telecommunications.”)
(internal quotation marks omitted); Vonage Holdings
Corp. v. Minn. Pub. Util. Comm’n, 290 F. Supp. 2d 993,
1003 (D. Minn. 2003) (provision of voice over internet
protocol services was “the enhanced functionality on top of
the underlying network,” thus, was not an FCC regulated
telecommunications service) (relying upon the FCC’s
report to Congress, 13 F.C.C. Rec. 11501)), aff’d, 394 F.3d
568 (8th Cir. 2004). Xpedite, which claims to be providing
“enhanced” telecommunication services, can similarly be
said to be providing an enhancement “on top” of the third
party’s LD telephone network, thus, is not providing or
selling LD telephone services as contemplated by the
illustration at issue here (Example 2).
The court makes one final observation. Even if it
were to be argued that the type of entity intended to
be addressed by, the scope of, and the terms/phrases
used in Example 2 are vague, and the regulatory history
provides no insight or assistance in this regard, it does
not require a conclusion that the allocation of Xpedite’s
receipts of “toll revenues” is limited to “billings for calls
originating in New Jersey,” (the latter phrase itself
indicating that the limited allocation would not apply since
Example 2 would not apply to Xpedite since 100% of its
calls originate in New Jersey). As explained above, an
example or illustration cannot limit or expand the statute
or the regulation. It is the statutory intent which controls.
Moreover, the issue in this case is the reasonableness of
Taxation’s allocation methodology as to which it has “broad
authority” to make adjustments which would “accurately

45a
Appendix C
and fairly” represent a taxpayer’s “activity, business,
receipts.” Metromedia, Inc., 97 N.J. at 323. Here, the
intent of N.J.S.A. 54:10A-6 is inclusive, not exclusive.
The same inclusive intent underlies N.J.A.C. 18:7-5.10(a).
Under both the statute and the regulation then, Xpedite’s
receipts would be 100% allocable to New Jersey. As such,
any ambiguity in Example 2 need not be resolved in favor
of Xpedite such that it can allocate 5% -7% as reported on
its CBT returns. See, e.g., Fedders Fin. Corp. v. Dir., Div.
of Taxation, 96 N.J. 376, 384-386 (1984) (in interpreting
statutes, courts must “follow the clear import of statutory
language,” and “when interpretation of a taxing provision
is in doubt, and there is no legislative history that
dispels that doubt, the court should construe the statute
in favor of the taxpayer,” so that a taxpayer cannot be
taxed beyond what the statute provides, however, where
the taxpayer seeks an exemption from tax, then “the
probable legislative intent is one of inclusion.”); Adamar
of N.J. v. Dir., Div. of Taxation, 17 N.J. Tax 80, 86 (Tax
1997) (“Regardless of which principle applies, and which
party has the burden of persuasion, the court’s duty in
construing a statute is to determine” legislative intent, and
if the court finds the intent is “inclusive,” such as the SUT
Act, then taxpayers “have the burden of demonstrating
that their” transactions are not taxable, “and any doubt
as [sic] taxability should be resolved in favor of” Taxation)
(citation and internal quotation marks omitted), aff’d, 18
N.J. Tax 70 (App. Div. 1999).
The remaining issue is possible inconsistent treatment
of Xpedite under the SUT Act. Taxation does not dispute
that Xpedite collects sales tax from its customers under

46a
Appendix C
N.J.S.A. 54:32B-3.12 The auditor accepted Xpedite’s
reporting based on the “two out of three” factors. See
supra note 2. Thus, when collecting such tax for New
Jersey, Taxation has not disputed that Xpedite is selling
telecommunications.
Taxation maintains that the inconsistency, if any, is not
controlling not only because the SUT Act broadly defines
telecommunications, but also because the issue here is the
allocation of receipts to New Jersey, where consideration
must be given not just to the nature of services, but also
to the cost of performance and economic realities, and
Example 2 is limited to an LD telephone company, of LD
telephone calls, and of toll revenues from LD calls. Xpedite
contends that it is the same sales which are at issue,
therefore, if it is deemed to be selling telecommunications
under the SUT Act, then it must be doing the same for
purposes of the CBT Act.

12. In 2002, Xpedite’s protested Taxation’s denial of its claim
for refunds of SUT for 1997-2001, claiming its computers (including
the hardware and software) and “related communications
equipment,” such as servers and routers, were exempt under
N.J.S.A. 54:32B-8.13(c). It contended that “all telecommunications
services performed at Xpedite’s New Jersey facility originate in
the State,” it resold the third party phone services as part of its
fax services, and was “subject to” FCC’s jurisdiction generally
having submitted comments to a proposed FCC regulation on
unsolicited phone/fax advertisements. Taxation granted the SUT
refund for Xpedite’s equipment pursuant to N.J.S.A. 54:32B-8.13,
but claimed it had insufficient information of the “assets used
directly in the transmission of [Xpedite’s] faxes.”

47a
Appendix C
The issue here is the quantum of receipts allocable
to New Jersey for CBT. Xpedite has not challenged the
validity of the controlling statute, N.J.S.A. 54:10A-6(B)(4),
-6(B)(6), or the regulation, N.JA.C. 18:7-8.10(a). As noted
above, the allocation methodology must ultimately be one
which fairly reflects the business and the economic realities
of how income is generated. The economic reality is that
almost everything to do with the fax blasts (Xpedite’s
services), occurs in New Jersey. Xpedite receives the
customers’ order in New Jersey. Xpedite uses it software
and hardware, located in New Jersey, to decide the least
cost routes. Xpedite originates the fax blasts from New
Jersey. Xpedite monitors the progress and delivery of the
fax blasts from New Jersey. Xpedite generates delivery
status reports to its customers from New Jersey. The fact
that it uses RFDC’s or POPs located outside New Jersey
is only to lower costs, and does not change the fact that
the transmissions begin in New Jersey (the customer is
presumably using its own LEC, CLEC, or ILEC to send
its order to Xpedite, thus, Xpedite cannot claim to be
providing LD telephone services to its customer in this
regard).
T he SU T A c t de e m i n g X p e d it e a s s e l l i n g
telecommunications becomes relevant only if one is
attempting to fit Xpedite into Example 2, and then
construe Example 2 broadly to cover any type of
telecommunications. The court has found to the contrary.
Additionally, under such a construction, internet access
providers could also fit into Example 2 since they could be
using LD telephone lines (at least back in 1984 when the
regulation was amended and modems were used to connect

48a
Appendix C
to the internet). If so, N.J.A.C. 18:7-8.10(c), and Example
2 therein addressing internet access services become
redundant.13 Of note is also the fact that the SUT Act
broadly encompasses all forms of telecommunications as
subject to the tax except for radio and television broadcast.
Example 2 is limited to LD telephone services.
In any event, Taxation applied a similar 25-50-25
analogy to “source receipts to NJ,” and determine sales
tax payable (i.e. based on call origin, customer billing,
and call destination). Thus, even if Xpedite is considered
a retailer of telecommunications under the SUT Act,
it does not require that the allocation be limited to its
customers billed at a New Jersey address for purposes of
determining the numerator portions of the receipts factor
under the CBT Act.
CONCLUSION
In sum, the court finds that Taxation’s allocation
methodology for the numerator portions of receipts from
services comports with the language and intent of the
controlling statute and regulations, and its adjustment to
Xpedite’s allocation factor was reasonable. Metromedia,
Inc., 97 N.J. at 323. Xpedite has not met its burden of
overcoming the presumptive correctness of Taxation’s
CBT assessments. TAS Lakewood v. Dir., Div. of
Taxation, 19 N.J. Tax 13, 140-41 (Tax 2000). Therefore,
13. Effective 2008, internet access service is not considered
“ telecommunications” under the SU T Act . See N. J. SA .
54:32B-3(cc).

49a
Appendix C
the court grants Taxation’s cross-motion for summary
judgment. The complaint is dismissed.
Very truly yours,
Mala Sundar, J.T.C.

